      OFFICE OF
 INSPECTOR GENERAL




BENEFICIARY PERSPECTIVES OF
    MEDICARE RISK
            1996




         4   JUNE GIBBS BROWN
             Inspector General

                 MARCH 1998
                    E X E C U T I V E S U M M A R Y

PURPOSE

To describe beneficiaries’ experiences in their Medicare risk         in 1996.

BACKGROUND AND METHODOLOGY

Medicare beneficiaries may join a risk health maintenance organization (HMO) through
the Medicare program. In return for a predetermined monthly amount per enrollee, the
HMO must provide all Medicare-covered services that are medically necessary, except
hospice care. Once enrolled, beneficiaries are usually required to use HMO physicians
and hospitals. As of October 1997, the Health Care Financing Administration (HCFA)
reported 307 risk HMO plans served              Medicare enrollees.

Using HCFA databases, we selected a two-stage random sample of 4,065 enrollees and
disenrollees from 40 Medicare risk             Since our primary focus was Medicare
beneficiaries’ experiences in their risk         we collected information directly from
them. As in our 1993 study, we surveyed both enrollees and disenrollees to compare their
responses, and thus, to gain greater insight into HMO issues. We did not attempt to
validate their responses through record review or HMO contact.

FINDINGS




Over 85 percent of beneficiaries indicated good access to Medicare-covered services,
hospital admission and specialty care. Most beneficiaries reported quick appointments
when they were very ill and timely appointments for routine services.

Over 89 percent of beneficiaries attributed their improved or maintained health to HMO
medical care; a large majority rated their primary doctors’ and         overall
performance as good to excellent.

Most enrollees (93 had no plans to leave their          3 1 percent of disenrollees left
their       for administrative reasons only, e.g., moved from HMO service area.



Improvement is evident by statistically significant changes in reports of:

    Encountering consistently busy telephone lines when trying to make appointments for
    enrollees (20% to 10%) and disenrollees (37 % to 16 %).


                                               i
    Doctors’ failing to take beneficiaries’ health complaints seriously for enrollees (12%
    to 7%) and disenrollees (39% to 19%).
    Doctors failing to provide Medicare-covered services to disenrollees (22% to 12%).
    Going out-of-plan for services without HMO approval by disenrollees (22% to 10%).
    Medical care received through the           causing worsened health for disenrollees
          to 11%).
    Inappropriate screening of health status at application for enrollees (43 % to 18 and
    disenrollees (48% to 20%); however, the effect of a slight word change in the 1996
    survey question is unknown.



Annlication                -- HMO screening for health status at application was reported by
18 percent of beneficiaries. While a marked reduction from the 1993 level of 43 percent,
this is still a concern, as is the unimproved rate (14%) of beneficiaries’ who don’t
understand their physicians’ gatekeeper role from the beginning.

Appeal and grievance rights -- In 1996, beneficiaries’ lack of awareness of appeal rights
remained high, with 35 percent of disenrollees and 27 percent of enrollees being
uninformed; similarly, 40 percent of disenrollees and 28 percent of enrollees were
unaware of their grievance rights. Of the beneficiaries       did file formal complaints, 36
percent perceived unfair handling of their complaints; 55 percent of the uninformed said
they would have filed complaints had they known their rights.

Emergency and urgent care -- In 1996, of the 39 percent of beneficiaries who said they
bad used emergent and urgent services while in the sampled HMO, 10 percent said their
       refused to pay. Four percent of all beneficiaries said they did not seek the
emergent/urgent care they believed they needed because they thought the HMO might not


               services -- In 1996, of the women responding about access to
gynecological services, most said either referrals from their primary physicians were
required (35%) or they didn’t know what was required (38%); of the remaining women,
64 percent didn’t feel they needed gynecological services. Women’s not being aware or
not believing they need these services is of concern because national standards recommend
regular gynecological care and tests for older women.

                                                         --
                              --

             limited and disabled beneficiaries had significantly more problems with
accessing specialists, hospital care, and other Medicare-covered services, as well as with
receiving full explanations of their treatment options and serious consideration of their
health complaints. For example, functionally limited enrollees were more likely to report
their doctors didn’t take their health complaints seriously (16% vs. 5%) and failed to



                                              ii
provide needed services (8 % vs. 2         More disabled enrollees (16 % vs. 4   reported
difficulty in obtaining referrals to specialists.

             ill beneficiaries reported more problems with hospital admissions and with
accessing physician services and non-routine services such as diagnostic tests and physical
therapy; however, they had the same good access to other services as healthier
beneficiaries.

                                              of
                                                    for some services.

Disenrollee data have been used by researchers and program managers to detect systemic

problems or trends, but, more recently, are being developed for HMO-specific consumer

use. Analysis of our 1996 data revealed several areas for which disenrollees reported

more problems than enrollees:


    Didn’t get quick appointments when they were very ill (15% vs. 4%)

    HMO doctors didn’t take their health complaints seriously (19 % vs. 7
           refused to pay for emergency or urgent care (20% vs. 10%)

    Medical care through the HMO caused their health to worsen (11% vs. 3
    HMO doctor failed to provide needed Medicare-covered services (12 % vs. 3 %)

    Pap tests (50% vs. 58%) or mammograms (60% vs. 71%) were offered to fewer

    disenrolled women in the last year

RECOMMENDATIONS

We continue to believe HCFA needs to improve its oversight of the Medicare risk HMO
program in six persistent problem areas:

    Assuring         properly inform beneficiaries about their appeal and grievance rights;
    Improving beneficiaries’ understanding of HMO procedures and restrictions for
    obtaining medical services;
    Preventing inappropriate screening of beneficiaries’ health status at application;
    Identifying and carefully monitoring service access problems encountered by
    functionally limited, disabled, and chronically ill beneficiaries;
    Systematically collecting and tracking over time HMO-specific beneficiary-reported
    data on access to medical services and reasons for disenrollment; and
    Distinguishing between administrative and non-administrative disenrollments, if HMO
    disenrolhnent rates are to be used as a performance indicator.

The 1996 survey data also suggest that HCFA needs to take steps to better inform older
women about gynecological services and health.

AGENCY COMMENTS

HCFA concurred with all the report’s recommendations.


                                              111
                   T A B L E O F C O N T E N T S


EXECUTIVE SUMMARY


INTRODUCTION
                                                                   1

FINDINGS
                                                                       5

     Summary of Beneficiaries’ Assessments
                                     5

     Health and Functional Status
                                              6

     Federal HMO Requirements
                                                  8

     Access: Appointments for Services
                                        11

     Access: Medical Services and Out-of-Plan Care
                            13

     Access: Behavioral Barriers to Services
                                  17

     Functionally Limited, Disabled and Chronically Ill HMO Beneficiaries
     20

     Reasons for Joining and Leaving an HMO
                                   22

RECOMMENDATIONS
                                                               27

AGENCY COMMENTS
                                                               30

                                                                               31

BIBLIOGRAPHY
                                                                  36

APPENDICES


     Methodology                                                              A-l

     Statistical Data for Key Questions                                       B-l

     Demographic Comparison of 1993 and 1996 Data                             C-l

     Supplementary Tables for Beneficiary Survey Findings                     D-l

    Supplementary and Statistical Tables for Functionally Limited, Disabled
    and Chronically Ill Beneficiaries                                         E-l

    Text of Agency Comments                                                   F-l
                            INTRODUCTION

PURPOSE

To describe beneficiaries’ experiences in their Medicare risk        in 1996.

BACKGROUND



Medicare beneficiaries may join a risk health maintenance organization (HMO) through
the Medicare program. When enrolling beneficiaries,            may not deny or discourage
enrollment based on a beneficiary’s health status except for end-stage renal disease
         or hospice care. They must also adequately inform beneficiaries about lock-in to
the HMO and appeal/grievance procedures. Under a risk contract, Medicare pays the
HMO a predetermined monthly amount                  rate) per enrolled beneficiary. In
return, the HMO must provide all Medicare covered services that are medically necessary
except hospice care. Once enrolled, beneficiaries are usually required to use HMO
physicians and hospitals (lock-in) and to obtain prior approval from their primary care
physicians for other than primary care. The Health Care Financing Administration
(HCFA) has oversight responsibility for Medicare risk contracts with             Effective
July 1997,          internal reorganization placed many managed care functions under the
new Center on Health Plan and Provider Operations. Previously, the HCFA Office of
Managed Care was the responsible agency. As of October 1997, HCFA reported 307
risk-based HMO plans served               Medicare enrollees.

             of

The Office of Inspector General (OIG) has conducted several studies of Medicare managed
care. In 1995, the OIG released two fmal reports based on 1993 survey data from 2,882
Medicare HMO enrollees and recent disenrollees randomly sampled from 45 Medicare
risk         While the majority of enrollees and disenrollees reported access to medical
care that maintained or improved their health, the results also indicated some serious
problems with enrollment procedures and service access. Further, the reports suggested
how HCFA could use information from beneficiaries to guide its performance monitoring
and assessments of         HCFA was generally receptive to the reports’ conclusions and
recommendations, and had begun to implement an improvement strategy, some features of
which addressed the problems the OIG had noted.

In 1996, the OIG released         reports for two more areas of the Medicare HMO
program -- HMO customer satisfaction surveys and Medicare HMO appeal and grievance
             The first found that, while virtually all Medicare risk and cost
conduct customer satisfaction surveys, the surveys do not target their Medicare members,
they lack uniformity, and technical weaknesses in many may mask problems and inflate
satisfaction with managed care plans. The report concluded that these factors substantially

                                             1
reduce the usefulness to HCFA of the customer satisfaction surveys conducted by
HCFA stated that the study provided important insights in influencing its decision to
develop, its own beneficiary satisfaction survey capability. The work on appeal and
grievance processes also noted several problems. While most beneficiaries were generally
aware of their rights to formally complain about services and payments, they had less
understanding of the particular circumstances under which these rights can be exercised.
In addition, the communication between the HMO and the beneficiary regarding denials of
service or payment did not work well. The study also found that           did not fully
comply with HCFA directives for processing appeals and grievances, and that a review of
HMO marketing/enrollment materials and operating procedures showed incorrect or
incomplete information on appeal and grievance rights. HCFA agreed with the conclusion
that improvements were needed and was working to implement a number of the
recommendations with plans for better informing beneficiaries of their appeals and
grievance rights.

In 1997, HCFA has taken additional steps towards the improvement of their Medicare risk
HMO program. In April 1997, HCFA published its final rules for an expedited review
process and reconsideration when services are denied. In partnership with the Agency for
Health Care Policy and Research, HCFA has launched its own survey of HMO enrollees
with a survey of disenrollees under development. Ultimately, HCFA anticipates releasing
comparative risk HMO data from the surveys and HEDIS measures to the public.

The results presented in this report update the 1993 OIG survey of HMO beneficiaries and
address new issues, such as beneficiaries’ reasons for joining an HMO and perceptions of
the          costs of HMO membership.



          of access

Beyond referencing medical necessity and an actual or likely adverse effect on the
beneficiary, the law and regulations do not clearly delineate what full access to services
through an HMO means. To adequately cover access to services, we adapted a definition
from literature that uses five dimensions: availability, accessibility, accommodation,
affordability, and acceptability. Operationally, we divided access into five areas:
appointments, including waiting time and administrative processes for making them;
restrictions on medical services; incidence and reasons for out-of-plan care; behavior of
primary HMO doctors and other HMO personnel towards beneficiaries; and beneficiary
awareness of appeal and grievance rights.




   See Appendix A for the full text of the Methodology.

                                             2
From HCFA’s Group Health Plan (GHP) data base, we selected a two-stage random
sample, stratified at the second stage. At the first stage, we selected Medicare risk
from those under contract with HCFA as of May 1996. We first excluded those that did
not meet our parameters for length of time in the Medicare program or for number of
enrollees and disenrollees. From the remaining             we randomly selected 40. At the
second stage, we selected current enrollees and recent disenrollees from each sampled
HMO. After excluding enrollees and disenrollees who had not been members for at least
3 months, we randomly selected 5 1 enrollees and 5 1 disenrollees from each of the 40
         Finally, using HCFA’s Enrollment Data Base, we dropped beneficiaries who had
died or who appeared as current enrollees, but had actually disenrolled since the last
update to the GHP file. This process resulted in 2,038 enrollees and 2,027 disenrollees
for a total of 4,065 beneficiaries.



Since this study’s primary focus is the Medicare beneficiaries’ perceptions of their risk
HMO experiences, we only collected information from them. We surveyed both enrollees
and disenrollees to compare their responses, and thus, to gain greater insight into HMO
issues. We did not contact          or their staffs, nor did we attempt to assess the quality
or propriety of medical care rendered by the           to these beneficiaries. We initially
mailed structured survey forms to 4,065 beneficiaries in early August 1996. In
September 1996, we mailed a follow-up letter and second survey form to non-respondents;
we closed data collection in October 1996.

With the exception of four questions on overall ratings of their HMO experiences, we did
not specifically ask beneficiaries about their satisfaction with the       Instead we
asked for more concrete details on beneficiaries’ perceptions and experiences, such as,
how long were waits for appointments, or how often, if ever, did a primary physician fail
to take their health complaints seriously. Both enrollees and disenrollees provided
information on sample and demographic data, enrollment experience, past and present
health status and functional level, cost of HMO membership, HMO environment, and
available HMO services.

A total of 3,229 survey forms were returned. Of these, 3,003 were usable yielding an
unweighted return rate of 74 percent overall, 82 percent for enrollees (N= 1,665) and 66
percent for disenrollees



We weighted the collected data to reflect a non-response bias, differences in enrollment
size among the sampled         and distribution of enrollees and disenrollees in the




                                              3

universe (97% vs. 3%) for the sample period.** The results are generalizable only to the
132         that met our sampling parameters.

Because of the imbalance between enrollees and disenrollees, we primarily analyzed the
two groups separately. Comparisons between enrollees and disenrollees, or
populations of them form the basis for all tables in this report, particularly when these
groups differed markedly in reporting their HMO experiences. All tables show the
weighted percentages with the weighted number of respondents in parentheses.
Additionally, we computed 95 % confidence intervals and statistical significance for key
questions (see Appendix B).

               of

A core set of questions on enrollment experience and access to services appears in both
the 1993 and 1996 survey forms. Throughout the report, we present this comparative data
for key questions. One caveat is that we selected our 1993 beneficiary sample somewhat
differently. Despite the differences in sample selection, the       and beneficiaries
sampled in 1993 and 1996 appear to have similar characteristics in the same proportions
(see Appendix C). The           are predominantly independent practice associations
and for-profit. Enrollees and disenrollees are predominantly female, white, age 65 or
older, and high school graduates or higher. The average length of enrollment in the
sampled          calculated from HCFA data, is somewhat shorter in 1996.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




   Disenrollees from the sampled          were about 13 percent of enrolled HMO
   members in 1996.

                                             4
                                         FINDINGS

SUMMARY OF BENEFICIARIES’ ASSESSMENTS

In 1996, beneficiary responses about their HMO experiences present a picture of good
access to care, improvements since 1993, and improvements needed. In 1996, as in 1993,
the majority of HMO disenrollees and enrollees reported medical care that maintained or
improved their health, timely appointments for primary and specialty care, good access to
most Medicare covered services and to hospital, specialty and emergency care, and
sympathetic treatment by their           and HMO doctors. Since 1993, improvement is
evident in the problem areas of inappropriate screening of health status at application,
difficulty with making appointments by telephone, going out-of-plan for needed services,
doctors’ failure to take beneficiaries health complaints seriously, and disenrollees’
perceptions that HMO care made their health worse. In 1996, as in 1993, screening for
health status at application and beneficiaries’ awareness of their formal complaint rights
were problems. The 1996 data suggest access to emergency/urgent care and
gynecological services is problematic for some beneficiaries.



In 1996, the majority of disenrollees and enrollees gave favorable summative ratings, e.g.,
excellent and good, very easy and easy, to their doctors’ care and           service access
and value (see Table 1). A difference between the two groups, however, is that for every
rating question, enrollees’ favorable ratings were higher than disenrollees’ ratings.

                        Table 1: Beneficiaries’ Overall Ratings of the         - 1996

                                   Enrollees                                        Disenrollees

                  Excell.      Good         Fair     Poor/VP        Excell.      Good        Fair

Care given by     46%          43%          7%            2%         36%         36%        18%        10%
primary doctor   (956,663)   (864.2681 (144,799)      (30,588)      (18,766)    (18,634)   (9,157)

HMO on            46%          46%          7%            1%         29%         40%        18%        14%
viding needed    (924,442)   (920,958) (149,799)      (21.8351      (14,834)    (20,840)
services

                 V.Easy        Easy      Neither     HardNH         V.Easy        Easy     Neither    HardNH

HMO rules make     26%         41%         28%            5%         22%          30%       29%        20%
getting needed   (516,590)   (806,715)   (547,420)   (106,754)                  (14,956)   (14.4921   (9,980)
care --

                 Definite    Probable      Not                      Definite    Probable     Not
                   Yes         Yes       Decided          No         Yes          Yes      Decided      No

HMO worth          57%         30%         9%             4%         45%         28%        10%        17%
premium costs?               (589,533)   (169,840)    (71,928       (23,014)    (14.4761              (8,513)




                                                     5

HEALTH AND FUNCTIONAL STATUS

                                                                                of self-


   Serious chronic medical conditions -- Based on 1996 beneficiary-reported incidence
of serious chronic medical conditions, 49 percent of disenrollees and 46 percent of
enrollees had no serious chronic health problems (see Table D-l). The most frequently
reported problems were heart attack/heart condition (14      diabetes (10     lung problems
(7     broken bones (6      cancer, excluding skin cancer (6     and stroke (5      About
one-third reported one serious chronic health problem; another 17 percent reported having
2 or 3 serious health problems. By excluding diabetes, lung problems and an “other”
category, all of which were not part of our 1993 data, responding beneficiaries from 1996
and 1993 appear similar in health status based on serious chronic medical                In
1996, with these conditions excluded, 76 percent of disenrollees and 71 percent of
enrollees reported no serious chronic health problems. Our comparable 1993 survey data
showed no serious chronic health problems for 69 percent of disenrollees and 67 percent
of enrollees.

   Functional limitations -- In 1996, disenrollee and enrollee responses on health and
functional limitations, such as problems with climbing stairs or bathing, indicate that most
beneficiaries were able to perform well. A substantial majority of disenrollees (71%) and
enrollees (68 had none of these functional limitations. The most frequently reported
functional limitations were problems with walking several blocks (27       carrying or
lifting groceries (19     climbing one flight of stairs      and bathing or showering
(7%). About 10 percent had one functional limitation; another 14 percent reported two or
three limitations.

    Sickest, most functionally limited, and disabled beneficiaries -- Of the categories of
beneficiaries whose self-reported data indicated they were the most ill, functionally
limited, or disabled by Medicare standards, 38 percent of disenrollees and 41 percent of
enrollees were in at least one               We classified beneficiaries as the most
chronically ill if they reported at least one condition from the list of heart condition, heart
attack, cancer, kidney failure, stroke or diabetes, and as the most functionally limited if
they reported at least one limitation from a list of most basic activities of daily living,
e.g., problems with bathing or showering, or using the toilet. Many disenrollees (43 %)
and enrollees (41%) said they had neither serious chronic health problems nor functional
limitations.




Overall, both disenrollees and enrollees reported worsened health over time, but the rate
of perceived decline was greater for disenrollees (Table 2). At enrollment, disenrollees
and enrollees appeared similar in health status. For example, 71 percent of disenrollees
and 75 percent of enrollees rated their health as excellent to good; 5 percent and 4


                                               6
percent, respectively rated        health as poor to very poor. When we surveyed them,
disenrollees’ (63 and enrollees’ (69 reports of excellent to good health were
significantly different. Also, disenrollees (11%) were more likely than enrollees (5  to
report poor to very poor health.

                     Table 2: Beneficiary Self-Reported Changes in Health Status 1996

                                      Enrollees                                              Disenrollees

                         Excellent      Fair            Poor to                  Excellent        Fair       Poor to
                         to Good                       Very Poor                 to Good                    Very Poor

 Health at                75%          21%                   4%                    71%           24%             5%
 enrollment                           (455,069)         (92,792)                 (42,740)       (14,288)

 Health at time of        69%          26%                   5%                    63%           26%          11%
 survey                              (497,630)         (103,983)                 (28,344)       (11,800)


    In 1996, 67% of enrollees and 61% of disenrollees had been enrolled in the sampled     for more
    than 12 months. The average enrollment length was 21 months for disenrollees and 34 months for
    enrollees.



                 of
                                                                                    for

In 1996, nearly all enrollees (97%) and most disenrollees (89%) reported that their
        medical care caused their health to improve or stay    same. Enrollees (43
were more likely than disenrollees (30%) to report improved health due to their HMO
care. When beneficiaries said their health worsened due to their          care,
groups most frequently cited problems with timeliness of or access to treatment as the
reasons for worsened health. In 1996, disenrollees (11%) were more likely than enrollees
(3 to report worsened health. Nevertheless, compared to 1993 rates, disenrollees’
responses showed marked improvement from worsened health (23 % to 11%) to
maintained health (43 % to 59

                           Table 3: Effect of HMO Care on Beneficiaries’ Health

                                                             Enrollees                            Disenrollees

                                                    1993                 1996                 1993           1996

 Medical care received through the HMO
 caused their health to:

    improve                                          53%             43%                      34%             36%
                                                  (498,298)        (847,873)                 (7,239)        (14,247)
    stay the same                                    45%             54%                      43%              59%
                                                  (423,270)                                  (9,335)        (28,500)
    worsen                                            2%               3%                     23%              11%
                                                   (17,524)         (50,343) -               (4,951)         (5,451)




                                                        7

FEDERAL HMO REQUIREMENTS



                                                                                           for


With the exceptions of         and the election of hospice care, Federal regulations
prohibit         from denying or discouraging enrollment based on a beneficiary’s health
status.          must also adequately inform beneficiaries about lock-in to the HMO and
other restrictions they may use for managing services, such as using primary physicians as
gatekeepers for other services. The majority of beneficiaries indicate that their
have followed Federal enrollment standards, but some beneficiaries’ recollections and
perceptions indicate weaknesses in enrollment procedures and in beneficiary understanding
of lock-in and the role of primary physician as gatekeeper. Basically, the enrollment
experiences of enrollees and disenrollees were similar in 1996.

                                      Table 4: Enrollment Experience

                                                      Disenrollees             Enrollees

                                                   1993         1996       1993            1996

  Were asked at application about health           48%          20%        43%        18%
  problems, excluding kidney failure and                                 (313,060) (237,335)
  hospice care.

  Were required to have a physical                               1%         3%           1%
  examination before joining HMO.                  1%)                   (25,827)     (15,165)

  Didn’t know they could change their minds         15%          15%        8%          9%
  about enrolling after they applied.             (3,446)      (6,273)   (75,186)    (112,609)

  Didn’t know, from the beginning, they:

     needed a referral from their primary          17%           14%       10%        14%
      HMO doctors to see a specialist.                         (8,082)   (110,631) (283,724)

     could only use HMO doctors and                  6%           6%        4%
      hospitals (except emergent care and         (1,665)      (3,427)   (38,972)    (1045.0;6591
      urgent care outside the service area).



    Screening for health status at application -- Table 4 illustrates how        may have
improperly screened Medicare applicants based on their health status. In 1996, 18
percent of all beneficiaries, who could remember, said they were asked at application
about their health problems, excluding kidney failure and hospice care. However, only
two beneficiaries, less than 1 percent of beneficiaries who had been asked about health
problems, felt that an HMO representative tried to discourage them from joining because
of their health problems. One percent of beneficiaries reported a physical examination
was required before they could join the HMO, an event that is specifically
A comparison of the 1993 and 1996 survey data shows the proportion of beneficiaries that
reported being asked about their health problems at application decreased significantly.
We can suggest two reasons for       decrease. The first is that            reduced
frequency of these improper screenings. The second is that our slight wording change in
the survey questions helped the respondents to focus better on the application process
rather than on a possible post-enrollment health assessment by the HMO.

    Understanding of HMO rules at application -- Another continuing problem with
enrollment procedures is beneficiaries’ understanding of HMO rules for obtaining
services. In 1996, of     beneficiaries who could remember, 15 percent of disenrollees
and 9 percent of enrollees said they didn’t know they could have changed        minds
about enrolling after they applied. Also within this group, 14 percent of both disenrollees
and enrollees didn’t know from the beginning they would need referrals from their
primary HMO doctors to receive specialty care. A smaller proportion of enrollees (5%)
and disenrollees (6%) reported not knowing from the beginning they were locked-in to
HMO doctors and hospitals, except for emergent care and urgent care outside the service
area. From 1993 to 1996, enrollees’ and disenrollees’ responses concerning
understanding of HMO rules changed very little.

                   of                              of
        of                                    of
             of                                    of

Federal guidelines require Medicare risk        to adequately inform beneficiaries about
appeal and grievance procedures, but beneficiary responses show a substantial proportion
of them were unaware of their rights (see Table 5).

                            Table 5: Awareness of Appeal and Grievance Rights

                                                         Enrollees                   Disenrollees

                                                   1993              1996        1993              1996

 Didn’t know they had right to file formal       25%             27%             31%             35%
 complaint about HMO’s refusal to provide      (243,871)      (527,146)         (6,753)        (18,778)
 or pay for services (appeal).

                                                    Enrollees 1996                Disenrollees 1996

 Didn’t know they had right to file formal                  28%                           40%
 complaint about other HMO problems, e.g.,               (544,016)                      (20,864)
 quality of care, waits for appointments
 (grievance).

 Knew about appeal or grievance rights, but                 7%                            7%
 not about both.
 -                                                       (125,276)

 Didn’t know about appeal       grievance                   24%                           34%
 rights.                                                 (460,052)                      (17,506)




                                                    9

Disenrollees were significantly less aware of their appeal and grievance rights than
enrollees. In 1996, 35 percent of disenrollees and 27 percent of enrollees were unaware
of their appeal rights. The 1996 rates are similar to those for 1993. Additionally, in
1996, 40 percent of disenrollees and 28 percent of enrollees didn’t know they could make
formal complaints (grievances) about HMO medical service problems, such as quality of
care or long waits for appointments. Finally, in 1996, a total of 41 percent of
disenrollees and 31 percent of enrollees lacked complete understanding of their rights to
formally complain. Thirty-four percent of disenrollees were unaware of both appeal
grievance rights compared to 24 percent of enrollees. Another 7 percent of disenrollees
and enrollees didn’t know about appeal grievance rights.

A 1996 OIG report focusing specifically on 1995 HMO appeal and grievance processes
provides additional insight into beneficiaries’                   In that study, the OIG
found that 86 percent of respondents were currently aware of their general right to make a
formal complaint about their HMO care or services, but only 66 percent knew they could
complain when they first joined the HMO. Beneficiaries were even less aware of specific
instances for which       might exercise their appeal and grievance rights. For example,
of beneficiaries didn’t know they could formally complain about their not being provided
Medicare-covered services           their physicians not taking their health complaints
seriously (40     or encountering delays in seeing a primary physician (46 or a
specialist (43      While not directly comparable because of differences in survey
questions, this study and      OIG study referenced above together suggest that many
beneficiaries don’t know about their right to file formal complaints, and that this trend has
not improved from 1993 to 1996.

      beneficiaries don’t know about        appeal and grievance rights is unclear.
However, a related 1996 OIG review of marketing and enrollment materials from 132
Medicare risk          having at least 450 enrollees found 37 (28%)          included no
information on either appeal or grievance processes in these materials. Also, an on-site
case review at 10 Medicare risk            showed that for 39 cases         distributed
across 8 of the 10           the       lacked evidence of informing beneficiaries about
their appeal rights in initial                  While these data are not projectable to all
Medicare risk           they do indicate some reasons for beneficiaries’ lack of awareness.


                             of                                                 of
                       of


In 1996, we expanded our questions on beneficiaries’ awareness of         complaint rights
to include their perceptions of the fair handling of complaints, and reasons for not filing
complaints (see Table 6). Respondents for these questions fell into         groups: aware
of their rights, but had not filed a formal complaint (72%); aware and had filed a formal
complaint (3       not aware of       rights (25
                  Table 6: 1996 Complaints -- Reasons for Not Filing and HMO Fairness

                                                               All        Enrollees     Disenrollees

  Were aware of rights, but had      filed a formal           72%            72%           59%
  complaint about the HMO.                                                               (30,610)

  Of these, didn’t file a complaint because:

     no problems with HMO                                     96%           96%            81%
                                                                                         (17,769)
     left the HMO instead                                      1%             1%           13%
                                                            (8.833)        (5,917)

  Were aware of rights and had filed a formal complaint        3%            3%             7%
  about the HMO:                                            (62,204)      (58,442)       (3,762)

  Of these, HMO did not handle formal complaint fairly.      36%            36%            42%
                                                             9,302)         8,022)          ,280)

  Weren’t aware of right to file formal complaints.           25%          25%             34%
                                                           (521,776)     (503,844)       (17,932)
  Of these, would have filed if had been aware.               55%          55%             55%
                                                           (234,758)     (227,361)



In general, enrollees were less critical of      HMO experiences in these areas
disenrollees. Enrollees (72%) were more likely          disenrollees (58 to report they
were aware of        rights, but they had     filed a formal complaint. More enrollees
didn’t formally complain because         said      didn’t have problems with their
(96%) compared to disenrollees (81%). Interestingly, 13 percent of disenrollees said they
left the HMO instead of filing a formal complaint. A small proportion (1% to 2 of
both enrollees and disenrollees mentioned they didn’t know how to file a complaint, or it
was too much trouble to file one.

Beneficiaries noted two other serious concerns with making formal complaints. Of the
disenrollees (34%) and enrollees (25 who were not aware of their appeal and grievance
rights, 55 percent of both groups said they would have filed a formal complaint if they
had known their rights. Finally, disenrollees (7%) were more likely than enrollees (3
to file a formal complaint, but a sizable proportion of    enrollees (36%) and
disenrollees (42%) who had filed perceived that their        had not handled their
complaints fairly.

ACCESS: APPOINTMENTS FOR SERVICES




In 1996, most disenrollees and enrollees said they received timely appointments measured
by days elapsed before a scheduled appointment or time spent in an office waiting to see a
doctor (see Table D-3). The majority of disenrollees and enrollees reported getting
appointments within 1 to 2 days when they believed         were very sick, scheduling
appointments with primary care doctors and specialists within 8 days or less, and usually
waiting less than a half-hour in the office and examination room before seeing the doctor.
Responses about timely appointments          primary HMO doctors were similar in 1993
and 1996.

However, a sizable group of disenrollees and enrollees reported waiting from 13 to more
than 20 days for scheduled appointments. Waiting this long for appointments with their
primary HMO doctors were 13 percent of both disenrollees and enrollees, and 19 percent
and 18 percent respectively for appointments with specialists. These data suggest that
some disenrollees and enrollees had better access to physician care for more acute
conditions     for health maintenance or preventive care. High percentages of both
groups (85 % and        respectively) reported being able to see a doctor quickly when
     were very sick.

In 1996, disenrollees did not fare as well as enrollees in two categories of timely
appointments -- quickly scheduled appointments for very sick beneficiaries and time spent
waiting in the office and examination room to see       doctor. Of those who said they had
been very sick, disenrollees (15    were much more likely than enrollees (4%) to say they
didn’t get an appointment within a day or two. Disenrollees also reported longer waits in
the office and examination room to see their primary HMO doctors; disenrollees (25%)
were much more likely than enrollees (13       to wait a half-hour to more      one hour.




Busy telephone lines continue to hinder some beneficiaries’ access to services (see Table
7). In 1996, disenrollees (16%) reported encountering consistently busy telephone lines
more often than enrollees (10     and said they sometimes gave up trying to make
appointments more often (12% vs. 6       However, the rates beneficiaries report for busy
lines and giving up on appointments have improved substantially since 1993.

                                  Table 7: Appointments by Telephone                             II

                                                      Enrollees               Disenrollees

                                                  1993            1996    1993          1996

 Reported busy lines all to most of the time.     20%          10%        37%           16%
                                                (111,691)   (197,804)

 Sometimes gave up on making                      11%           6%         17%           12%
 appointments due to the busy lines.            (65,141)     (73,195)    (2,627)       (4,721)
ACCESS: MEDICAL SERVICES AND OUT-OF-PLAN CARE




In 1996, a large majority of enrollees and disenrollees believed their primary HMO
doctors provided the necessary care (see Table 8). Their responses consistently indicated
good access to Medicare covered services, hospital admission and specialty care.

                             Table 8: Services Through Primary HMO Doctor

                                                        Enrollees               Disenrollees

                                                 1993               1996     1993            1996

  Primary HMO doctor never failed to provide      97%               97%       78%         88%
  Medicare covered services that were           (924,590)                   (18,494)    (45,168)
  needed.

                                                   Enrollees 1996            Disenrollees 1996

  Primary HMO doctor never failed to admit               98%                        95%
  to hospital when needed.                                                        (22,474)

  Primary HMO doctor never failed to refer to            95%                       86%
           when needed.                                                          (33,310)

  Primary HMO doctor usually explained all               90%                       77%
  wavs health         could be treated.                                          (33.286)



However, in four instances, disenrollees reported a significantly greater degree of access
problems. First, disenrollees (12%) more often said than enrollees (3        that their
primary HMO doctors failed to provide Medicare-covered services. Nevertheless,
disenrollees’ perception of a problem has improved since 1993. Second, of the 1996
beneficiaries who believed        needed to see a specialist, disenrollees (14%) were more
likely than enrollees (5%) to report       doctors failed to make necessary referrals to
specialists. Third, of the beneficiaries who had health problems, disenrollees (23 were
much more likely        enrollees (10%) to say        primary HMO doctors didn’t explain
all treatment options to them. Their responses on treatment options may relate to their
perceptions of their doctors’ concern with costs and failure to take their health complaints
seriously. They tended to say more often than other beneficiaries that their doctors didn’t
take their health complaints seriously and that       doctors and          seemed to be more
concerned        the cost of care (see Behavioral Barriers to Services on page 17).

In 1996, disenrollees also reported greater problems with being seen by only a member of
the doctor’s staff (see Table D-4). Sixteen percent of disenrollees who had a doctor’s
appointment said they were seen instead by a nurse or technician compared to only 7
percent of enrollees. Of these, sizable proportions of both disemollees (53%) and


                                                  13
enrollees (41%) reported not seeing the doctor at visits from 2 to more than 3 times in the
last 6 months.




Another measure of medical service access is the rate of access to routine preventive and
screening services. In 1996, we asked              which of these services they had been
offered by their HMO doctors or            We chose services offered over services
received as a more liberal method of assessment. We also filtered out        beneficiaries
who had not seen a doctor or had not received any services through the HMO while a
member We then compared the reported rates to the goals outlined in Healthy People
2000 (see Table D-6). Because of differences between the questions we asked and the
measurements for the goals of Healthy People 2000, these comparisons provide only
general assessments.

According to the beneficiary-reported data,         exceed several national goals for
certain preventive and screening services, but fall short for others. The beneficiary-
reported rates of offers for mammograms and prostate cancer screening already meet or
exceed the goals. The reported rates for influenza and pneumonia immunizations, are
lower than the        goals, especially the pneumonia immunization. The reported rates for
blood cholesterol and colon cancer screening are probably below the 2000 goal. The
blood cholesterol rate is, however, higher than the 1992 interim progress rate while the
colon cancer screen is lower. The reported rate for offering Pap tests appears to be lower
than the 2000 goal, but we have no data on the proportion of sampled women with uterine
cervix.

A small, but notable group, are the disenrollees (7%) and enrollees (5      who reported
being offered none of the preventive or screening services. Even among those
beneficiaries enrolled for over a year, 6 percent of disenrollees and 5 percent of enrollees
still said none of the services were offered.

The most striking difference between disenrollees and enrollees is in their responses for
the offer of Pap tests and mammograms. Overall, enrolled women were more likely than
disenrolled women to say they had been offered a Pap test (58% vs. 50%) or a
mammogram (7 1% vs. 60 in the last year of membership. The difference in rates is
even wider between disenrolled and enrolled women who were members for a year or
less. The reason for this difference is unknown, but the timing of the offer for these
services by some           i.e., close to enrollment versus well after enrollment, may be a
factor.

The rates of offering other routine preventive and screening services is closer between
disenrollees and enrollees. Disenrollees and enrollees reported, at similar rates, the offer
of screening for prostate cancer, blood pressure reading, blood cholesterol screening and
flu shots. Disenrollees who were members for a year or less reported the lowest rates for
an offer of colon cancer screening.




In 1996, of the beneficiaries who needed non-routine services in the last 6 months (73 %),
 13 percent reported some problems with getting them due to the             pre-approval
process (see Table D-5). Non-routine services in this category include referrals to
specialists, physical therapy and the more expensive diagnostic tests, such as a CAT
        Disenrollees (24%) were more likely than enrollees (13        to say      had
experienced delays in receiving non-routine services due to the HMO pre-approval
requirement. By far, the most frequently mentioned service for which both disenrollees       ’

(69 and enrollees (63 experienced delays was a specialist referral, followed by waits
for approval of physical therapy (24%) and special diagnostic tests’ (17       Most
beneficiaries who had problems getting non-routine services reported this happened 1 or 2
times in the last 6 months. Disenrollees (10%) were more likely than enrollees (2%) to
say they had waited for HMO approval 5 or more times in the last 6 months.
Disenrollees (27%) were also more likely than enrollees (14%) to report waiting 3 weeks
or longer for approval.




In 1996, excluding dental, routine eye, and emergency/urgent care, 6 percent of
beneficiaries reported they had sought out-of-plan care for Medicare covered services
without prior approval when required (see Table D-7). Eighty percent of beneficiaries
who sought out-of-plan care in 1996 had done so 1 to 3 times in the last 6 months.
Disenrollees (10%) were more likely than enrollees (6%) to go out-of-plan. For
disenrollees, however, this is a notable drop from the 1993 rate of 22 percent.

In 1996, needing the care, even if the HMO would not approve it, was the motivation
most frequently mentioned (32%) by beneficiaries who had gone out-of-plan. This
suggests that about a third of beneficiaries going out-of-plan perceived service access
problems and perhaps implies a quality of care issue. Other reasons related to
of-plan but not as frequently mentioned by disenrollees and enrollees are not getting
services quickly enough (11% and 15 %), not getting referrals to a specialist (10 % and
9 and not being helped by the primary HMO doctor (12% and 8                The second most
frequently mentioned reason for going-out-of-plan        being temporarily out of the HMO
service area which was cited by 25 percent of disenrollees and 19 percent of enrollees.
Finally, disenrollees (20 more often than enrollees (3 said they went out-of-plan
because they didn’t think they would have to pay for it. This clearly illustrates some
disenrollees’ misunderstanding of lock-in.
Payment for emergent and urgent care is sometimes a difficult policy area for
beneficiaries and          While          will generally pay for any required emergency
care, they will only pay for urgent care from a non-HMO provider outside the service
area. Further, beneficiaries are not always able to differentiate between the need for
emergency and urgent care, or between urgent and non-urgent

                            Table 9: Emergent and Urgent Services     1996

                                                             All             Enrollees   Disenrollees

  Used emergent/urgent services while an HMO member.         39%                40%         35%
                                                          (796,742)          (778,465)    (18,277)

  For those who used emergent/urgent services, HMO          10%                10%          20%
  informed them it would not pay                          (79,325)           (75,902)      (3,423)

  Of all respondents who believed they needed emergent       4%                 4%           6%
  or urgent care, those who did not seek it because HMO   (49,970)           (47,859)
  might not pay.



These complexities have caused access problems for some beneficiaries (see Table 9). Of
the 39 percent of beneficiaries who said they had used emergent and urgent services while
a member of the sampled HMO, 10 percent encountered their             refusals to pay.
Disenrollees (20%) experienced this significantly more often than enrollees (10%). Four
percent of beneficiaries who believed they needed emergent or urgent care said they did
not seek it because they thought the HMO might not pay.




A somewhat controversial, but permissible, aspect of service access is         requiring
women to have a referral to a gynecologist. Critics of this requirement would argue that
gynecological services are an integral part of women’s primary health care and should not
require a referral. In 1996 we asked women if their          allowed them to see their
gynecologists without a referral (see Table 10).

Sixty-one percent of women respondents provided information indicating their awareness
of their        policy for referral to gynecological services. Within this group, the
smallest proportion of 28 percent said their        did not require a referral. Thirty-five
percent of the women said a referral was required, but disenrolled women (61%) were
much more likely than enrolled women (35 to report this. Finally, 38 percent of
women didn’t know their            referral requirements for gynecological services, with
enrolled women (37%) much less aware than disenrolled women (16%).
                             Table IO: Referrals for Gynecological Services   1996

                                                                   All          Enrollees   Disenrollees

  Women who answered regarding their awareness of the             61%             61%          51%
       requiring a referral for gynecological services.         (665,386)      (615,819)       3,667)

  Of these, women who said:

     referral not required                                        28%             28%          23%
                                                               (185,050)       (181,843)
     referral required                                           35%              35%           61%
                                                               (230,439)       (222,131)      (8,308)
     don‘t know                                                  38%              38%           16%
                                                               (249,897)       (247,745)      (2.152)

  Women for whom a referral for gynecological services           39%             38%           49%
  was not pertinent:                                           (420,165)       (407,202)     (12,963)

     primary doctor is a gynecologist                              3%              3%           3%
                                                                (10,684)        (10,239)
     uses primary doctor for all health care                      33%             33%          16%
                                                               (137,087)       (134,993)
     didn’t need to see a gynecologist                            64%             65%          80%
                                                               (272,394)       (261,970)     (10,424)



For the remaining women respondents           referral for gynecological services was
apparently not an issue. Of these women, 64 percent said they didn’t need to see a
gynecologist. Interestingly, disenrolled women (80%) were much more likely than
enrolled women (64%) to believe that. These women’s answer is a serious health concern
because both the National Cancer Institute and the Healthy People 2000 project
recommend regular gynecological care and tests for older             Thirty-one percent
of these women used their primary doctors for all health care, and a few (3     had a
gynecologist for a primary HMO doctor.

ACCESS: BEHAVIORAL BARRIERS TO SERVICES

Unsympathetic behavior of primary HMO doctors, their staffs and HMO office staff can
subtly or directly restrict beneficiaries’ access to medical services. Examples of this
behavior are not taking health complaints seriously, showing undue concern about
treatment costs, or encouraging a beneficiary to leave the HMO. As mentioned
previously, some beneficiaries seemed to relate problems with full explanations of
treatment options to their perceptions of their doctors’ concern with costs and failure to
take their health complaints seriously (see page 13).
     of

In 1996, disenrollees (19 were more likely than enrollees (7 to believe their
primary HMO doctors did not take their health complaints seriously (see Table 11)
Substantial proportions of both disenrollees (40%) and enrollees (28 %), who didn’t feel
they were taken seriously, said they encountered this attitude all to most of the time.
From 1993 to 1996, the proportions of disenrollees and enrollees believing they were not
being taken seriously declined significantly. However, the rates of those experiencing this
problem all to most of the time remained high. In 1996, the two behaviors reported most
often by both disenrollees and enrollees as indicative of their doctors’ attitudes were their
seeming not to listen and blaming the beneficiaries’ health problems on their age. About
a third of disenrollees and a fourth of enrollees also mentioned their doctors seemed to be
impatient with them, not letting the beneficiaries fully explain their concerns, and not
examining them.

                        Table 11: Doctor’s Behavior Regarding Health Complaints

                                                       Enrollees                      Disenrollees

                                                  1993             1996            1993             1996

 Primary HMO doctor did not take health            12%           7%                39%            19%
 complaints seriously.                          (108,855)     (13,874)            (8,868)       (9,383)

 Didn’t take complaints seriously all to most     36%           28%                44%           40%
 of the time.                                   (32,760)      (33,049)                          (3,318)

                                                   Enrollees 1996                  Disenrollees 1996

 When primary HMO doctor didn’t take
 complaints seriously,

    seemed not to listen                                45%                                50%
                                                        1,449)                            (4,327)
    blamed health problems on beneficiary’s             36%                                47%
                                                      (41,788)                            (4,104)
    seemed impatient                                    25%                                36%
                                                      (28,388)                            (3,104)
    wouldn’t let beneficiary fully explain              26%                                33%
     concerns                                         (29,832)                            (2,856)
    didn’t examine beneficiary                          23%                                31%
                                                      (26,885)
The majority of beneficiaries reported they believed their primary HMO doctors and
       emphasized providing the best medical care over holding down the cost of care
(see Table 12). However, a substantial minority perceived an emphasis on containing
costs. In 1996, disenrollees were more likely than enrollees to say that holding down the
costs was most important to their primary doctors (15 % vs. 7     and        (27 % vs.
15      Both disenrollees and enrollees seemed to believe that cost concerns were more
important to their         than to their primary HMO doctors. Between 1993 and 1996,
beneficiaries’ beliefs about what was important to their       and doctors changed little
(see Table B-2).

                             Table 12: Cost of Care vs. Best Care Possible

                                                       Enrollees                    Disenrollees

                                                1993               1996          1993         1996

  Most important to your primary HMO
  doctor is:

     holding down cost of care                   10%             7%               28%          15%
                                               (94,695)      (142,064)          (6,460)      (7,655)
    giving best medical care possible            73%            74%              47%          57%
                                              (7 16,623)                          0,927)    (29,309)
     don’t know                                  12%            16%               24%         25%
                                              (120,819)      (312,089)          (5,564)     (12,876)

  Most important to your HMO is:*

     holding down cost of care                   11%            15%              35%          27%
                                              (108,364)      (300,595)                      (13,689)
    giving best medical care possible            67%           62%               39%          43%
                                              (667,057)                         (9.016)     (22,369)
     don’t know                                  12%            16%              20%          24%
                                              (120,709)      (318,857)          (4,609)     (12,384)

    The column does not total 100% as a small proportion of beneficiaries answered that both holding
     down cost of care and giving best medical care possible were most important.


  few

A small group of beneficiaries reported having felt at sometime during their membership
that their       or primary HMO doctors wanted them to leave. Disenrollees (7%)
reported encouragement to leave more often than enrollees (1%). Interestingly,
disenrollees (4%) most often said they were being encouraged to leave because they would
probably receive better care outside the HMO. Disenrollees also felt their         or
HMO doctors wanted them to leave because they were too sick to be in the HMO (1
the medical care they needed was too expensive (2       or they asked for too many services
or appointments (2%). Of the beneficiaries who felt they had been encouraged to leave,
39 percent said someone, nearly always their doctors, had actually told them they should
leave their

FUNCTIONALLY LIMITED, DISABLED AND CHRONICALLY ILL HMO
BENEFICIARIES

A review of recent literature strongly indicates that a separate analysis of seriously or

chronically ill and disabled HMO members is required for a complete understanding of

HMO medical care. Because they use the health care system more often and cost more to

care for, the less healthy members have a more experienced view of that system than

healthy members and are more vulnerable to cost saving strategies employed in managed

          Further, a recent medical outcomes study found patients with chronic

illnesses had worse outcomes in           than in fee-for-service, but, similar differences did

not exist between HMO and fee-for-service outcomes for a healthier                      Also

of concern is the tendency for Medicare HMO enrollees to be healthier than beneficiaries

in fee-for-service and for less healthy beneficiaries to be over-represented in the HMO

disenrollee

We classified disenrollees and enrollees as functionally limited or chronically ill by using

their self-reported health and functional status. Disabled beneficiaries met the

Medicare disability criteria and were younger than age 65. The sub-populations of

functionally limited and disabled beneficiaries are not the same, although some overlap

         The sub-population of the chronically ill, as we have defined them, is very

broad in terms of their illnesses. More significant differences in access to services may

appear when we analyze the data by individual illnesses or conditions. We plan to release

a separate, more detailed report illustrating differences between these three groups and

healthier beneficiaries.


We found statistically significant differences when comparing the experiences of healthier

beneficiaries with those of functionally limited, disabled and chronically ill beneficiaries.

In general, functionally limited and disabled beneficiaries reported more service access

problems than the chronically ill and the healthier beneficiaries. Compared to healthier

beneficiaries, however, functionally limited and disabled beneficiaries reported no

significant differences in quick appointments when they were very sick, delays in

receiving non-routine services (e.g., referrals to specialists, special diagnostic tests), and

the belief that containing cost was most important to their primary HMO doctors.




                             of                                                      of


  Functionally limited -- Functionally limited beneficiaries, i.e., had problems with
basic daily activities, reported more problems in accessing medical services through their
       and their primary HMO doctors than healthier beneficiaries (see Tables E-l and


                                               20
4). Functionally limited enrollees (11%) and disenrollees (3 1%) were more likely than
healthier enrollees (5 and disenrollees (16%) to say that HMO rules and procedures
made it hard or very hard for them to get the health care they needed. Concerning their
primary doctor’s care of them, functionally limited enrollees were more likely than
healthier enrollees to say their doctors didn’t take their health complaints seriously (16%
vs. 5    and failed to provide needed Medicare-covered services (8 % vs. 2        .
Functionally limited enrollees were also less likely to feel their primary HMO doctors had
explained all treatment options to them (85% vs. 91%).

Functionally limited disenrollees reported the same significant access problems when
compared to healthier disenrollees -- health complaints not taken seriously (24% vs. 17
needed Medicare-covered services not provided (20% vs. 1 1        and all treatment options
explained less often (69% vs. 79%). In addition, functionally limited disenrollees said
more often than healthier disenrollees that their primary HMO doctors failed to refer
to specialists when needed (25 % vs. 12%). Functionally limited beneficiaries reported no
significant differences for hospital admissions.

    Disabled -- Disabled beneficiaries reported more problems with accessing medical
services than aged beneficiaries (see Tables E-2 and E-5). Like functionally limited
beneficiaries, disabled enrollees (24%) and disenrollees (37%) were much more likely
than aged enrollees (5%) and disenrollees (18%) to say that HMO rules and procedures
made it hard or very hard for them to get the health care they needed. Disabled enrollees
(16 and disenrollees (36%) were also more likely than aged enrollees (4%) and
disenrollees (13 to report their primary HMO doctors failed to refer them to needed
specialist services. Disabled disenrollees also stated more often that their primary HMO
doctors failed to hospitalize them when needed (19 % vs. 4 Disabled disenrollees
reported other significant access problems -- health complaints not taken seriously (39%
vs. 17     needed Medicare-covered services not provided (27 % vs.            and all
treatment options explained less often (61% vs. 78


                                                        of


Chronically ill disenrollees and enrollees fared as well as their more healthy counterparts
in accessing medical services through their Medicare              with three exceptions (see
Tables E-3 and E-6). They reported experiences similar to healthier beneficiaries’ for
quick appointments when they were very sick, full explanations of treatment options,
referrals to specialists, having their health complaints taken seriously, and the effect of
HMO rules and procedures on the ease of obtaining needed health care. The exceptions
involved access to physician, hospital and non-routine (e.g., referrals to specialists, special
diagnostic tests) services. Chronically ill disenrollees were more likely than healthier
disenrollees to report that their primary HMO doctors failed to hospitalize them when the
beneficiaries believed they needed to be admitted (8 % vs. 3          Also, chronically ill
disenrollees were more likely to say they experienced delays in receiving non-routine
services (32 % vs. 20        Finally, chronically ill enrollees (5    were more likely than
healthier enrollees (3 to report their primary HMO doctors failed to provide them
needed Medicare-covered physician services.

REASONS FOR JOINING AND LEAVING AN HMO




An important aspect of beneficiaries’ reasons for joining and leaving Medicare risk
is the effect of market competition. As mentioned, the Medicare risk HMO program has
grown rapidly, increasing from 90 Medicare risk            in February 1993 to 307 in
October 1997. In addition, Medicare beneficiaries can enroll or disenroll from their
        at any time. Medicare           often attract new beneficiaries through enhanced
benefits, such as offering prescription drug coverage, or reducing the amount of extra
premiums charged to beneficiaries.

Analysis of our sampled Medicare risk           confiis increased program growth and
competition in their geographic areas during 1995 and 1996. During 1995 and 1996, 43
percent of the sampled         experienced competition from one new Medicare risk
HMO, 32 percent from two or more. Overall, the growth of the Medicare HMO program
resulted in 48 percent of our sampled         competing       four or more other Medicare
risk        offering services within the same market area.

During the 1995-96 growth period, Medicare risk          did offer more attractive cost
and benefit packages. In December 1994, half of all Medicare risk          charged
enrollees a premium averaging $32.00 per month, but, by December 1996, only one-third
of all Medicare risk        were charging an additional premium averaging $13.52 per
          In the same two-year period, the proportion of Medicare risk         offering
prescription drug coverage increased dramatically from 38 to 60             Of the 40
Medicare risk         in our 1996 sample, 31 plans offered a prescription drug benefit,
and 29 plans did not charge a monthly premium. Of the           charging a premium, four
plans charged under $40 a month, six plans charged between $40 to $65 a month, and one
plan had a monthly premium of over $100.




Disenrollees and enrollees agreed on the reasons for joining an HMO. Wanting more
affordable health care was the most frequently mentioned and most important reason for
over half of both groups. Together with affordable health care, three other reasons
account for over 80 percent of beneficiaries’ reasons for joining, i.e., HMO coverage of
services that Medicare doesn’t cover, influence of family and friends, and a desire for
better quality health care.
                        Table 13: Reasons for Joining a Medicare Risk HMO   1996

                                                        Enrollees                  Disenrollees

                                              Reason              Most         Reason        Most
  Reason&“’                                   to Join           Important      to Join     Important

  More affordable health care                  68%                  54%         70%           55%
                                                                              (42,528)      (29,694)
  HMO covers services Medicare doesn’t         37%                14%           38%           15%
                                            (8 16,334)         (268,676)      (23,266)
  Family/friends recommended HMO               24%                 6%           26%            5%
                                                               (109,292)      (15,670)      (2,668)
  Better quality health care                  21%                  7%           23%           10%
                                            (457,672)          (139,737)      (14,213)      (5,245)



Other beneficiary characteristics are consistent with their most important reasons for
joining an HMO, especially their desire for more affordable health care (see Table D-8).
Only 28 percent of beneficiaries had been members of another HMO before joining the
one we sampled. The majority obtained their medical care from a non-HMO doctor or
from no regular source. If the primary goal is to reduce the out-of-pocket costs for
deductibles and co-insurance while gaining access to a wider array of services, HMO
membership is a logical choice for many. Further, over 43 percent of enrollees and 39
percent of disenrollees paid no HMO premium beyond the regular Medicare Part B
premium. Of the beneficiaries who did pay an additional HMO premium, the majority
paid between $1 and $39 monthly. Interestingly, of the beneficiaries who rated their
premium rates as expensive, 38 percent of disenrollees and 16 percent of enrollees paid $1
to $39 monthly.


                                 of


At present, Medicare beneficiaries may disenroll from their managed care plans on a
monthly basis. In early 1997, the U.S. General Accounting Office (GAO) suggested that,
by limiting beneficiaries’ option to change to fee-for-service except during an official open
season, Medicare might achieve modest savings on money now spent on services for
HMO members who change to fee-for service. The downside of an official open
season, as GAO acknowledged, is that “beneficiaries would lose an important consumer
protection and might be less willing to enroll in managed care.” HCFA responded that it
would oppose such a change to the Medicare disenrollment policy. Nevertheless, the
health provisions of the Balanced Budget Act of 1997 (Public Law 105-33) mandated the
a more restrictive disenrollment policy beginning on January 1, 2002.
                            Table 14: Effect of Mandatory One-Year Enrollment - 1996

                                                                   All            Enrollees   Disenrollees

   If beneficiary had to stay in the HMO for one year, the
   effect on the enrollment decision would be:

      more likely to join                                          34%              34%          22%
                                                                (749,412)                      (12,801)
      less likely to join                                          17%               16%         33%
                                                                (37 1,062)        (351,497)    (19,565)
      no effect on decision                                        49%              49%          45%
                                                                                               (26,475)




 In 1996, before the law changed, we asked beneficiaries if their being required stay in the
 HMO for one year would effect their enrollment decisions (see Table 14). The largest
 proportion of disenrollees (45 and enrollees (49 said that such a requirement would
 have no effect on their decision to join an HMO. However, disenrollees (33       were
 much more likely than enrollees (16%) to say that, under those conditions, they would be
 less likely to join an HMO. These data suggest that, overall, 17 percent of beneficiaries
 may hesitate to join an HMO if they do not have the option to leave at will.

                            of


  In 1996, 93 percent of enrollees had no plans to leave their            the remainder, an
  estimated 141,773 beneficiaries, either planned to leave or felt they couldn’t even though
  they wanted to (see Table D-10). The plans of 4 percent were based on an anticipated
  move, an administrative reason we discuss further in the next section, or other unspecified
  reasons. Four percent of enrollees wanted to leave their             but felt they couldn’t,
  largely for reasons of affordability, i.e., health care outside the HMO was too expensive
  or non-HMO doctors don’t accept Medicare assignment. Compared to 1993, a larger
a proportion of enrollees in 1996 (93 % vs. 84%) said they were staying with their
  and a smaller proportion (4 % vs. 10%) said they couldn’t leave even though they wanted
  to.

                                                                    for
                                                                             of


 Three major categories account for 91 percent of disenrollees’ most important reasons for
 leaving their         administrative actions        the health care delivery system itself
        and access to medical services (18    (see Table         Difficulties with


   See Table D-9 for a more details on disenrollees’ most important reasons for leaving
    their     .
prescription drug coverage was the main reason for 4 percent of disenrollments; another 6
percent were due to a general desire for better care or a combination of reasons

                 Table 15: Disenrollees’ Most Important Reasons for Leaving Their

                                                                              Percent   Beneficiaries

  ADMINISTRATIVE REASONS (total)                                               31%        11,262

  HEALTH CARE DELIVERY SYSTEM (total)                                          42%        15,190

     Provider problems: doctors/hospitals not conveniently located, no         20%          7,064
      longer with HMO, not enough choice of or disliked doctors/hospitals;
      preferred provider not with HMO

     Cost only or cost vs. service benefit (excluding Rx) too high; another     8%         2,867
      HMO was better deal

     Discomfort/dislike of HMO way of doing business; HMO not what              6%         2,026
      expected based on enrollment information

     Combination of reasons/other reasons, e.g., other coverage (VA,            9%         3,233
      Medicaid)

  ACCESS TO MEDICAL SERVICES (total)                                           18%         6,779

     Poor quality medical care: wrong diagnosis/treatment, treatment            5%         1,778
      delayed/denied/limited, getting sicker/not getting better, hospital
      discharge too soon, seen by personnel other than doctor.

     Difficulties with appointments, referrals; quality or access               4%         1,512
      compromised by emphasis on cost

     Not personally well-treated by PCP/HMO personnel (rudeness,                2%          869
      complaints ignored, doctor rushed or disinterested)

     Combination of or other access problems, e.g., billing disputes or
      HMO slow to pay providers                                                 7%        2,620

  PRESCRIPTION DRUGS needed too expensive, not covered; drug                   4%          1,301
  coverage may have changed since enrollment

  General desire for better care or combination of reasons among                6%        2,055
  categories



    Administrative reasons for                  as we defined them, are business or
procedural actions to end a beneficiary’s HMO membership. They account for nearly a
third of Medicare HMO disenrollments, but they have little to do, at least ostensibly, with
HMO health care delivery or access to medical services. Absence from the HMO service
area (17%) and changes in membership status, such as changing plans within the HMO
        were the most frequently reported administrative reasons. A few disenrollees
(2%) cited involuntary reasons such as clerical error or an unpaid premium. In 1993, 29
percent of disenrollees reported ending their HMO memberships for administrative
reasons, most often because of a planned move out of the service area.


                                                     25
    Health care delivery system reasons are related to the HMO infrastructure and ways
of doing business, and they account for 42 percent of disenrollees’ most important reasons
for leaving. Reasons related to provider problems (20%) is the largest group within the
category. Within this category, 9 percent of disenrollees didn’t believe they had enough
choices in HMO doctors or hospitals, or they wanted to use providers not currently
associated with their           Another 8 percent said they left because their doctors or
hospitals were no longer HMO providers; some followed their doctors to new
Nine percent felt their doctors or hospitals were not conveniently located. In keeping with
their concerns about affordability and service coverage mentioned earlier, 8 percent of
disenrollees left because HMO costs or costs versus service benefits were too high. Some
disenrollees went to other         they perceived as “a better deal. Six percent left for
reasons related to their discomfort with or dislike of their        way of providing care;
that is, some felt the HMO rules too restrictive while others found the         were not
what they expected from the marketing materials in terms of cost, covered services or
restrictions on services. In 1993, the choice of primary HMO doctors and high
beneficiary expenses were the two most important disenrolhnent reasons as well.

    Access to medical services problems accounted for 18 percent of the disenrollees’
most important reasons for leaving their         Five percent reported poor quality
medical care which includes a technical component (wrong diagnosis or treatment) as       .l
as service access complaints, such as delayed, denied or limited treatments, or premature
hospital discharges. Four percent encountered difficulty in making appointments and
securing referrals, and compromised service access or quality due to a emphasis on
holding costs down. Another 3 percent left because that they were not personally
treated by their doctors or       which affected their service access. Seven percent
mentioned a combination of these or other service access difficulties.
                     RECOMMENDATIONS

Overall, beneficiary responses about their HMO experiences in 1996 present a picture of
good access to care, and program improvements since our 1993 beneficiary survey. In
1996, as in 1993, the majority of HMO disenrollees and enrollees reported medical care
that maintained or improved their health, timely doctors’ appointments, and good access to
most Medicare-covered services. Since 1993, improvement is evident in the problem
areas of inappropriate screening of health status at application, difficulty with making
appointments by telephone, going out-of-plan for needed services, doctors’ failure to take
beneficiaries health complaints seriously, and disenrollees’ perceptions that HMO care
made their health worse.

A comparison of our 1993 and 1996 data also shows, however, that several problems have
persisted with beneficiaries’ understanding of and accessing services in the Medicare risk
HMO program. While we initially recommended these same improvements, with HCFA
concurrence, in 1995 based on our 1993 data, our 1996 data indicate these issues remain
important today. Therefore, we strongly urge HCFA to make a concerted effort to
and, perhaps intensify, its oversight of the Medicare risk HMO program in conjunction
with its on-going improvement efforts. Other recent OIG reports, dealing specifically
with problems in Medicare appeal and grievance                and with Medicare’s
oversight of HMO performance and implications for Regional                support and
amplify the following six recommendations:

          should be more closely monitored to assure that they properly inform
   beneficiaries about their appeal and grievance rights. In 1996, as in 1993, a
   substantial group of beneficiaries did not know about their appeal and grievance rights.
   Of the beneficiaries who did not know about their right of formal complaint, over half
   said they would have filed if they had known. We believe that beneficiaries’
   understanding of appeal and grievance rights is extremely important considering the
   lock-in and gate-keeper features of HMO enrollment and potential problems with
   service access. The facts that 7 percent of HMO beneficiaries perceived their primary
   HMO doctors did not take their health complaints seriously, and 15 percent thought
   that holding down the cost of care was most important to their         further
   underscore this issue.

   Beneficiaries should be better informed about HMO procedures for obtaining
   services. Adequately informing beneficiaries about lock-in and the primary
   physician’s role as gatekeeper is a Federal requirement. Failure to inform them can
   lead beneficiaries to incur medical expenses that Medicare will not cover and/or to
   disenroll from their          From the beginning, 14 percent of beneficiaries didn’t
   know they needed referrals from their primary HMO doctors to see a specialist, and 5
   percent weren’t aware they could only use HMO doctors and hospitals except for
   emergent care and urgent care outside the service area.



                                            27

   Service access problems encountered by functionally limited, disabled, and
   chronically ill beneficiaries should be identified and carefully monitored, as they
   are especially vulnerable. In 1993, we reported that
   most often reported access problems in several crucial areas of their HMO care.
   Many                     enrollees wanted to leave their           In this report, the
   beneficiaries with more serious health conditions and with functional limitations in
   activities of daily living, as well as disabled beneficiaries, are reporting the same types
   of problems with their care.

   Medicare risk          should be monitored for inappropriate screening of
   beneficiaries’ health status at application. In 1996, 18 percent of beneficiaries
   reported being asked at application about their health problems. While this is an
   impressive drop from the 1993 rate of 43 percent, it indicates the possibility of
   ongoing health screening and selective enrollment by

   HCFA should systematically collect and track over time HMO-specific
   reported data on access to medical services through their             and reasons for
   disenrolhuent. Such HMO-specific data could strengthen information given to
   beneficiaries in making decisions about HMO enrollment. In addition, the data could
   be a powerful management tool that allows the development of performance standards
   and trends over time and the ability to judge if problems are pervasive or confined to
   specific          We also recommend the data collection cover the specifics of the
   process and experience of accessing services through the          rather than merely
   relying on general ratings or satisfaction scales.

* HCFA should distinguish between administrative and non-administrative
  disenrolhuents. Thirty-one percent of disemollees left their         for administrative
  reasons such as moving from the service area or being switched between plans within
  the HMO. These reasons have little to do with           health care delivery or access
  to medical services. If HMO disenrollment rates are to be used as performance
  indicators, as GAO has              to avoid misinformation HCFA should either
  exclude administrative disenrollments from their consumer information or treat them
  separately.

The 1996 survey data also suggest the need for improving women’s health care.

   HCFA should take steps to better inform older women about gynecological
   services and health. While we developed this recommendation from an HMO
   beneficiary survey, the educational need it suggests may be pertinent to all Medicare
   women. Among all women respondents, 23 percent didn’t know if their
   required a referral to see a gynecologist. While this appears to be a specific instance
   of their being uninformed about HMO procedures, it may also indicate the women
   don’t know because they haven’t tried to make appointments for gynecological
   services. In fact, another 25 percent of the women said they didn’t need to see a
   gynecologist. However, the National Cancer Institute recommends that older women
   should regularly have pelvic examinations and Pap tests. Further, for Pap tests, there


                                             28
   is no upper age limit, and hysterectomy is not a reason to discontinue them. Finally,
       Healthy People        goals suggest a mammogram every 2 years.

Additional Office of Inspector General Work

Another Inspector General report in progress is also intended to assist HCFA in its
examination and management of HMO issues. From this survey data we are completing a
more in-depth analysis of how the functionally limited, disabled, and chronically ill
beneficiaries perceive their access to needed care and services through




                                           29

                     A G E N C Y C O M M E N T S

Health Care Financing Administration

We received comments from the Health Care Financing Administration (HCFA) on this
report. HCFA concurred with all of the report’s recommendations, listing for each the
improvement strategies already in place or under development. The full text of
comments is in Appendix F.




                                          30

 1.	   This excludes the effect of the point-of-service option which was relatively new for
       the Medicare program at the time we completed the data collection phase of our
       study.
2.	    “Medicare Managed Care Plans, October 1997, a monthly report prepared by
       Office of Managed Care, HCFA.

3.	    In recent years, HCFA has begun to broaden the range of service delivery options
       within the Medicare managed care program. In October 1995, HCFA issued
       guidelines to        on offering a point-of-service (POS) option to Medicare
       enrollees. The POS benefit increases flexibility for Medicare HMO enrollees by
       allowing them to seek care outside the HMO’s provider network, typically with
       higher cost-sharing, i.e. the HMO will provide partial reimbursement for
       network services. In January 1997, HCFA launched the Medicare Choices
       demonstration project designed to provide beneficiaries a wider variety of managed
       care plans and to extend managed care options to rural areas. The demonstration
       plans include four provider sponsored networks, a preferred provider organization
       and a “triple option” hybrid that lets members see gatekeeper physicians, other
       plan providers without a gatekeeper referral, or providers outside the plan.
4.	    “Beneficiary Perspectives of Medicare Risk    (OEI-06-9 l-00730),
       “Medicare Risk HMO Performance Indicators” (OEI-06-91-00734)
5.	    “HMO Customer Satisfaction Surveys, OEI-02-94-00360
       “Medicare HMO Appeal and Grievance Processes Overview, OEI-07-94-00280
       “Medicare HMO Appeal and Grievance Processes: Beneficiaries Understanding,
             OEI-07-94-0028 1
       “Medicare HMO Appeal and Grievance Processes: Survey of
             OEI-07-94-00282
       “Medicare HMO Appeal and Grievance Processes: Review of Cases,”
             OEI-07-94-00283
6.	    We excluded diabetes, lung problems and an “other” category of serious health
       problems so that we could compare our 1993 and 1996 data. In 1996, other
       conditions beneficiaries considered serious included problems with hypertension,
       arthritis and joints, circulation, vision, prostate, gall bladder, Alzheimer’s disease
       and Parkinsonism.
7.	    Disenrollees reported 25 percent had at least one of the most serious conditions, 20
       percent had at least one functional limitation in the most basic activities of daily
       living, and 7 percent were disabled. Enrollee reports for the same categories were



                                              31

       29 percent in most ill, 18 percent most functionally limited, and 4 percent were
       disabled.

8.	    These data exclude the responses from beneficiaries who joined the sampled HMO
       through their or their spouse’s work (12

9.	    The length of enrollment in the HMO did not seem to affect beneficiary responses.
       The proportion of beneficiaries reporting health questions and required physical
       examinations at application was nearly the same for beneficiaries who had been
       enrolled for more than 12 months and for 12 months or less. ( 12 months,
       and 7)
10.	   An additional concern is that these indicators are based only on responses from
       beneficiaries who did enroll in an HMO. We cannot know, for this study, the
       experience of those who considered HMO membership, but did not enroll.
11.	   In 1993, we specifically asked beneficiaries about their experiences at application.
       However, some           conducted a health assessment interview shortly after
       enrollment. If some of these responses referred to such health assessments, this
       may have inflated our 1993 data.

       Health questions at application:

       (1993) When you applied for HMO membership, were you asked about your

       health problems. Don’t count questions about kidney failure or hospice coverage.


       (1996) Before you actually joined the HMO, did an HMO representative ask you

       about your health problems? Don’t count questions about kidney failure or hospice

       coverage.


       Required physical exam:

       (1993) Were you required to have a physical exam before you could join the

       HMO?

       (1996) Were you required to have a physical exam before the HMO would let you

       join?

12.    We did not ask about awareness of grievance rights in 1993.
13.    Office of Inspector General, OEI-07-96-00281, December 1996.
14.	   We did not ask, for example, if beneficiaries had general knowledge of their right
       to complain. Instead, we referred to an HMO’s refusal to provide or pay for
       services, which is closer to the example of “not being provided Medicare covered
       services.
15.    Office of Inspector General, OEI-07-94-00282, December 1996.
16.    Office of Inspector General, OEI-07-94-00283, December 1996.


                                             32

 17.	   Responses about appointments do not include waits for routine annual exams that a
        beneficiary might schedule well ahead of time or routine follow-up visits, such as a
        quarterly check-up.
 18.	   The proportions of beneficiaries who had seen a doctor or had received services
        through the HMO while a member were similar irrespective of their enrollment
        status or length of enrollment.


                        Comparison of Beneficiaries Who Received Services
                                    by Length of Enrollment

                     Stratum                   12 months      > 12 months
                     Enrollees                  88.17             95.46
                                             (83.3 - 92.5)     (89.0 - loo)
                                                90.85            96.59
                                             (84.9 - 96.8)     89.7 - loo)
                                                                      .


19.	    Healthy People 2000 - 199.596 Review, National Center for Health Statistics,
        Hyattsville, MD: Public Health Service: Department of Health and Human
        Services, 1996.
20.	    Additional services in this category are wheelchair or walker (6     non-emergency
        surgery (6     non-emergency hospital stays (4      nurse services       and other
        services such as routine gynecological services, second opinions, diagnostic tests
        such as x-rays, eye and hearing exams (27%).

21.	    HCFA has instructed risk plans at section 2104.1 of the                Manual that
        emergency services “must be, or appear to be, needed immediately.. . . Do not
        retroactively deny a claim because a condition which appeared to be an emergency,
        turns out to be non-emergency in nature. In section 2105, urgently needed care
        are services “required in order to prevent a serious deterioration of an enrollee’s
        health that results from an unforeseen illness or injury.”
22.	    We probably should not assume cause and effect here. For example, women may
        say they don’t need to see a gynecologist because getting a referral is difficult or
        because of a mistaken belief that they don’t need gynecological services because of
        age.
23.	    “Cancer Facts,” Cancemet from the National Cancer Institute, last modified in
        March 1994.
24.	    Some literature indicates this attitude toward the older patient is a problem
        generally and is not necessarily           to one particular care setting.



                                              33

25.   Twenty-four percent of disenrollees also said their doctors’ refusal to order tests
      was an indicator of not taking their complaints seriously compared to 12 percent of
      enrollees. Other category (29% to 30%) includes doctor rushed or did a
      superficial exam, did nothing or seemed to ignore the beneficiary, did not answer
      questions, blamed the complaint on depression, just prescribed medication, said the
      complaints were not serious or important, or refused to make a referral to a
      specialist.

26.            Paul, Michael        Paula Lozana and Julia       “Chronic Care
      Costs in Managed Care, Health       May/June 1997, pp. 239-247.
27.             John H., D.B.A, and Francis D. Moore, M.D., “The Two Cultures
      and the Health Care Revolution: Commerce and Professionalism in Medical Care,”
      Journal of the American Medical Association,

28.   Ware Jr., John E., Martha S. Bayliss, William H. Rogers, Mark          and
      Alvin R. Tarlov. “Differences in 4-Year Health Outcomes for Elderly and Poor,
      Chronically Ill Patients Treated in HMO and Fee-For-Service Systems, Journal of
      the American Medical Association,           13: 1039-1047.

29.   Morgan, Robert O., Beth A. Virnig, Carolee        and Nancy A. Persily , “The
      Medicare-HMO Revolving Door -- The Healthy Go In and The Sick Go Out, The
      New England Journal of Medicine, July 17, 1997, pp. 169-75.

30.   We classified beneficiaries as chronically ill if they reported at least one condition
      from the list of heart condition, heart attack, cancer, kidney failure, stroke or
      diabetes, and as functionally limited if they reported at least one limitation from a
      list of activities of daily living, i.e., problems with bathing or showering, using the
      toilet, getting in and out of bed, or climbing one flight of stairs.
31.   Disabled disenrollees and enrollees comprise only 24 percent and 12 percent,
      respectively, of the functionally limited populations.

32.   Lamphere, Jo Ann, Patricia Neuman, Kathryn Langwell, and Daniel Sherman,
      “The Surge in Medicare Managed Care: An Update, Health           May/June
      1997,     127-133.

33.   Lamphere, et al., May/June, 1997.
34.   Four percent of beneficiaries followed their doctors to the sampled HMO. Other
      reasons for joining given as the most important by 9 percent of disenrollees and 14
      percent of disemollees include HMO membership was part of retirement plan or
      union benefit, less paperwork than regular Medicare, a replacement for services no
      longer available at military bases, or convenient source of medical care.
35.   U . S . General Accounting Office, “Medicare   Potential Effects of a Limited
      Enrollment Period Policy, GAO/HEHS-97-50, February 1997.


                                            34

       “Medicare HMO members who               and change to fee for service tend to use
       more services and more costly procedures than the average beneficiary under fee
       for service. Consequently, Medicare spends more money to serve an HMO
       member who changes to fee for service than it would have paid to the HMO to
       care for that beneficiary.
36.	   “Medicare HMO Appeal and Grievance Processes, Office of Inspector General,
       OEI-07-94-00280 to OEI-07-94-00283, December 1996.
37.	   “Medicare’s Oversight of Managed Care: Monitoring Plan Performance,”
       96-00190
       “Medicare’s Oversight of Managed Care: Implications for Regional Staffing,
       01-96-00191

38.	   U.S. General Accounting Office, “Medicare: HCFA Should Release Data to Aid
       Consumers, Prompt Better HMO Performance, GAO/HEHS-97-23, October
       1996.




                                           35

                            BIBLIOGRAPHY

Adler, Gerald S., and M. Phil, “Medicare Beneficiaries Rate Their Medical Care: New
Data From the MCBS,” Health         Financing Review, Summer 1995,

       George J., “Legal Issues in Medicine: Patients’ Rights in Managed Care -- Exit,
Voice, and Choice,”    New England Journal of Medicine, July 17, 1997, 337:3:210-
215.

Beebe, James, “An outlier pool for Medicare HMO payments, Health             Financing
Review, Fall 1992, 14:

Bergeron, Jeanette, Randall S. Brown, and Jerrold Hill, fmal “First Annual Report: The
Evaluation of the TEFRA HMO/CMP Program, June 1990,                       Policy
Research, under Health Care Financing Administration contract #

Brown, Randall S., Dolores Clement, Jerrold Hill, Sheldon      and Jeanette
Bergeron, “Do Health Maintenance Organizations Work for Medicare?” Health
Financing Review, Fall 1993, 15: 1: 7-23.

Brown, Randall S., Kathryn Langwell, Katherine Berman, Ann Ciemenecki, Lyle Nelson,
     Schreier, and Anthony Tucker, “Enrollment and Disenrolhnent in Medicare
Competition Demonstration Plans: A Descriptive Analysis, September 15, 1986,
            Policy Research, under Health Care Financing Adminstration contract # 500-
83-0047.

Cleary, Paul D. and Barbara J. McNeil, “Patient Satisfaction as an Indicator of Quality
Care,” Inquiry, Spring 1988,

Clements, Dolores G., Sheldon           Randall S. Brown, Meribeth H. Stegall, “Access
and Outcomes of Elderly Patients Enrolled in Managed Care, Journal of the American
Medical Association, May 18, 1994, 271: 19: 1487-92.

Consumer Reports, “Health Care in Crisis: Are          The Answer?” August 1992, pp.
519-529.

Dallek, Geraldine, Aileen Harper, Carol Jimenez, Christina Nunez Daw, “Medicare
Contract        in California: A Study of Marketing, Quality, and Due Process Rights,”
Medicare Advocacy Project, Inc., January, 1993.

Davies,         Ross, John E. Ware, Jr., Robert H. Brook, Jane R. Peterson and Joseph
P . Newhouse, “Consumer Acceptance of Prepaid and Fee-for-Service Medical Care:
Results from a Randomized Controlled Trial, Health Services Research, August 1986,




                                           36

Docteur, Elizabeth R., David C.Colby, and Marsha Gold, “Shifting the Paradigm:
Monitoring Access in Medicare Managed Care, Health Care Financing Review, Summer
1996,

Donabedian, Avedis, “The Quality of Care: How Can It Be Assessed?” Journal of the
American Medical Association, September 23130, 1988, 260: 12: 1743-48.

              Susan and Paul D. Cleary , “What Information Do Consumers Want And
Need?” Health       Winter 1996,

Franks, Peter, Carolyn M.          and Paul A. Nutting, “Sounding Board: Gatekeeping
Revisited -- Protecting Patients From Overtreatment,      New England Journal of
Medicine, August 6, 1992,

Freeborn, Donald, Clyde Pope, and          McFarland, “Consistently High and Low
Elderly Users of Medical Care: Executive Summary, Center for Health Research, Kaiser
Permanente, Northwest Region, NCHSR Grant No. HS 05316-02, March, 1988.

Freudenheim, Milt, “Many Patients Unhappy With H. M.O. s,           New York Times,
August 18, 1993.

Friedman, Emily, “Policy Perspectives: Money Isn’t Everything - Nonfinancial Barriers to
Access, The Journal of the American Medical Association, May 18, 1994,
1538.

Griffith, Mary Jane, Nicholas Baloff, and Edward L. Spitznagel, “Utilization Patterns of
Health Maintenance Organization Disenrollees , Medical Care, September 1984,


Hays, Ron D., “The Quality of Patients’ Ratings -- Letters to the Editor, Health
Winter, 1988, pp. 174-75.

Healthy People 2000 - 1995-96 Review, National Center for Health Statistics, Hyattsville,
MD: Public Health Service: Department of Health and Human Services, 1996.

Hellinger, Fred J., “Selection Bias in Health Maintenance Organizations: Analysis of
Recent Evidence,” Health Care Financing Review, Winter 1987,

Hibbard, Judith H. and Jacquelyn J. Jewett, “Will Quality Report Cards Help
Consumers?” Health          May/June 1997,

Hill, Jerrold W., and Randall S. Brown, “Biased Selection in the TEFRA
Program,” Final Report of September 21, 1990,                Policy Research under
Health Care Financing Administration contract #




                                            37

Lamphere, Jo      Patricia Neumann, Kathryn Langwell, and Daniel Ssherman, “The
Surge in Medicare Managed Care: An Update, Health          May/June 1997,      127-
133.

Langwell, Kathryn M. and James P. Hadley, “National Evaluation of the Medicare
Competition Demonstrations - Summary Report, January 31, 1989,                  Policy
Research and the David Williamson Institute for Health Studies, Medical College of
Virginia, under Health Care Financing Administration contract # 500-83-0047.

          John H., and Francis D. Moore, “The Two Cultures and the Health Care
Revolution: Commerce and Professionalism in Medical Care, The Journal of the
American Medical Association, March 26, 1997, 277:

          James R., “Measuring Consumer Satisfaction to Improve Quality of Care,
Health Progress, March 1987,

Medicare and Medicaid Guide, Commerce Clearing House,

--              Calls for Combined Action to Contain Costs, Number 751, June
     pp. 4-6.

-- “Disabled Americans Support Universal Health Care Coverage,” Number 789,
   February 17, 1994, p. 5.

-- “HCFA Stresses Commitment to Managed Care,” Number 790, February 24, 1994, p.
   10.

-- “Proposed HMO Regs Would Require Beneficiary Post-Contract Protections, Number
   795, March 31, 1994, p. 5.

-- “Legislation Would Encourage Medicare Managed Care Plan Enrollment,” Number
   796, April 7, 1994, p. 9.

Morgan, Robert O., Beth A. Virnig, Carolee A.      and Nancy A. Persily, “The
Medicare-HMO Revolving Door -- The Healthy Go In And The Sick Go Out, The New
England Journal of Medicine, July 17, 1997,   169-175.

Nelson, Lyle, Randall Brown, Marsha Gold,      Ciernnecki, and Elizabeth Docteur,
“Access to Care in Medicare        1996,” Health        March/April 1997, 16:2:148-
156.

Office of Inspector General, Department of Health and Human Services

-- “Marketing Practices of South Florida         Serving Medicare Beneficiaries,
   04-9 l-00630, November 199 1.



                                           38

-- “Miami Area           Medicare Enrollment Patterns, OEI- 04-91-00640, November
   1991.
--   “HMO Customer Satisfaction Surveys, OEI-02-94-00360, March 1996.
--   “Medicare HMO Appeal and Grievance Processes Overview, OEI-07-94-00280,
     December 1996.
--   “Medicare HMO Appeal and Grievance Processes: Beneficiaries Understanding,
                  1,          1996.
--   “Medicare HMO Appeal and Grievance Processes: Survey of
     OEI-07-94-00282, December 1996.
--   “Medicare HMO Appeal and Grievance Processes: Review of Cases,
     OEI-07-94-00283, December 1996.

Pear, Robert, “Medicare To Stop Pushing Patients to Enter H.M. 0. s, The New York

Times, December 27, 1993, p. A-l.


Pear, Robert, “Once in Forefront,          Lose Their Luster in Health Debate,”
New York Times, August 23, 1994, p. A-10.


Penchansky , Roy, and J. William Thomas, “The Concept of Access: Definition and

Relationship to Consumer Satisfaction, Medical Care, February 1981,

Physician Payment Review Commission, 1997 PPRC Annual Report to Congress,

Washington, D.C.

Podolsky, Doug and Joanne Silbemer, “How Medicine Mistreats the Elderly, U.S. News

and World Report, January 18, 1993, pp. 72-79.


Porell, Frank W., Carolyn Cocotas, Peter J.         Christopher P. Tompkins, and

Mitchell Glavin, “Factors Associated with Disenrollment from Medicare         Findings

from a Survey of Disenrollees, July 1992, Health Care Financing Administration and the

Health Policy Research Consortium of Brandeis University under Cooperative Agreement

#              l-06.


Prasad, V.      and Rajshekhar G. Javalgi, “Understanding Needs and Concerns of the

Elderly Regarding Medicare Health Maintenance Organizations, The Journal of

Consumer         Summer, 1992, 26: 1: 47-67.


Richardson, David A., James Phillips, Dean Conley, Jr., “A Study of Coverage Denial

Disputes Between Medicare Beneficiaries and           Network Design Group, Inc.,

under HCFA Cooperative Agreement No. 17-C-90070/2-01, September 1993.





                                          39

Riley, Gerald, James Lubitz and Evelyne Rabey, “Enrollee Health Status under Medicare
Risk Contracts: An Analysis of Mortality Rates, Health Services Research, June 1991,
     137-163.

Rossiter, Louis F., Kathryn Langwell, Thomas T.H. Wan, and Margaret Rivnyak,
“Patient Satisfaction Among Elderly Enrollees and Disenrollees in Medicare Health
Maintenance Organizations: Results from the National Medicare Competition Evaluation,
Journal of the American Medical Association, July 7, 1989, 262:

Rossiter, Louis, Thomas Wan, Kathryn Langwell, James Hadley, Anthony Tucker,
Margaret Rivnyak, Kenneth Sullivan, John Narcross, fmal analysis report, “National
Medicare Competition Evaluation: An Analysis of Patient Satisfaction for Enrollees and
Disenrollees in Medicare Risk-Based Plans, April 1988, Williamson Institute for Health
Studies, Medical College of Virginia and            Policy Research, under contract #
500-83-0047.

Sherrid, Pamela, “Cutting the cost of staying healthy, U.S.     and World Report,
January 18, 1993, pp. 80-81.

Sullivan, Louis W., Secretary, Department of Health and Human Resources, fmal report
               Experience in the Medicare HMO and CMP Risk Program: 1985 to
1988,” 1990, based on               Policy Research study under contract #

Thomas, J. William, and Roy Penchansky, “Relating Satisfaction With Access to
Utilization of Services,” Medical Care, June 1984,

Tumlinson, Anne, et. al, “Choosing A Health Plan: What Information Will Consumers
Use?” Health          May/June 1997,

United States General Accounting Office,
--   “Managed Care: Explicit Gag Clauses Not Found in HMO Contracts, But Physician
     Concern Remains,                 175, August 1997.
--   “Medicare: Issues Raised by Florida Health Maintenance Organization
     Demonstrations, Chapter 5, GAO/HRD-86-97, July 1986.
--   “Medicare: Experience Shows Ways to Improve Oversight of Health Maintenance
     Organizations, HRD-88-73, August 17, 1988, GAO report summary.
--   “Medicare: Physician Incentive Payments by Prepaid Health Plans Could Lower
     Quality of Care,” GAO/HRD-89-29, December 1988.
--   “Medicare: PRO Review Does Not Assure Quality of Care Provided by Risk
     GAO/HRD-91-48, March 1991.



                                           40

   “Medicare: HCFA Needs to Take Stronger Actions Against            Violating Federal
   Standards,             11, November 199

   “Medicare: Increased HMO Oversight Could Improve Quality and Access to Care,
   GAO/HEHS-95-155, August 1995.

   “Medicare: Federal Efforts to Enhance Patient Quality of Care, GAO/HEHS-96-20,
   April 1996.

   “Medicare: HCFA Should Release Data to Aid Consumers, Prompt Better HMO
   Performance, GAO/HEHS-97-23, October 1996.

    “Medicare: Fewer and Lower Cost Beneficiaries With Chronic Conditions Enroll in
            GAO/HEHS-97-160, August 1997.

    “Medicare         Rapid Enrollment Growth Concentrated in Selected States,
                       January 1996.

   “Medicare     Potential Effects of a Limited Enrollment Period Policy,
   GAO/HEHS-97-50, February 1997.

United States Senate, Special Committee on Aging, Minority Staff Report, “Medicare and
       A First Look, with Disturbing Findings,” April 7, 1987.

Ware, John E., Jr. and Ann H. Karmos, “Volume II - Perceived Health and Patient Role
Propensity,” Development and Validation of Scales to Measure Patient Satisfaction with
Health Care Services, prepared for National Center for Health Services Research, Public
Health Service, 1976. National Technical Information Service, Publication No.
331.

Ware, John E., Jr., W. Russell Wright, and Mary K. Snyder, “Volume IV - Key Health
Concepts; Methodological Appendix, Development and Validation of Scales to Measure
Patient Satisfaction with Health     Services, prepared for National Center for Health
Services Research, Public Health Service, 1976. National Technical Information Service,
Publication No. PB-288-333.

Ware, John E. Jr., Martha s. Bayliss, William H. Rogers, Mark Kosinski, and Alvin R.
Tarlov, “Differences in 4-Year Health Outcomes for Elderly and Poor, Chronically Ill
Patients Treated in HMO and Fee-for-Service Systems,       Journal of the American
Medical Association, November 12, 1996, 276: 13: 1039-1047.




                                           41

                               APPENDIX A

METHODOLOGY

Definition of access

Beyond referencing medical necessity and an actual or likely adverse effect on the
beneficiary, the law and regulations do not clearly delineate what full access to services
through an HMO means, In order to construct a survey instrument that adequately
covered access to services, we adapted a definition from                 Basically, it uses
five dimensions (availability, accessibility, accommodation, affordability, and
acceptability) that represent the degree of “fit” between the patient and the health care
system, e.g. existing services and the patient’s medical needs, or price of services and the
patient’s ability to pay. To tailor the survey for Medicare risk          we expanded the
idea of service availability to include the role of gatekeepers, primary physicians or others
associated with the HMO, in preventing or facilitating beneficiaries’ receipt of covered
services. Operationally, we divided access into five areas: appointments, including
waiting time and administrative processes for making them; restrictions on medical
services; incidence and reasons for out-of-plan care; behavior of primary HMO doctors
and other HMO personnel towards beneficiaries; and beneficiary awareness of appeal and
grievance rights.

Sample selection

From            Group Health Plan (GHP) data base, we selected a two-stage random
sample, stratified at the second stage.

At the first stage, we selected Medicare risk            from those under contract with
HCFA as of June 1996. From a total of 208 risk                we excluded 76 because they:
1) had not been enrolling Medicare                 for at least 6 months as of June 1996, 2)
did not have at least 100 enrollees who had been members for 3 months or longer as of
June 1996, or 3) did not have at least 60 disenrollees from March 1996 through June 1996
who had been members for 3 months or longer. We set these restrictions to avoid
collecting data on         and beneficiaries with little Medicare HMO experience and to
assure an adequate sampling universe per HMO. From the remaining 132                  we
randomly selected 40.

At the second stage, we selected Medicare beneficiaries from each sampled HMO. The
universe of beneficiaries for each sampled HMO contained two strata -- Medicare
beneficiaries (enrollees) who were enrolled as of June 1996 and Medicare beneficiaries
(disenrollees) who had disenrolled from March 1996 through June 1996 for reasons other
than death. From each sampled HMO, after excluding enrollees and disenrollees who had
not been members for at least 3 months, we randomly selected 51 enrollees and 51
disenrollees. While we could have selected a proportional sample of beneficiaries, we
chose not to because of a planned but separate analysis of the same data at the HMO
level. Instead, for this report, we weighted the beneficiary data as described below.


                                           A - l
Finally, using        Enrollment Data Base, we dropped beneficiaries who had died or
who appeared as current enrollees, but had actually disenrolled since the last update to the
GHP file. This process resulted in 2,038 enrollees and 2,027 disenrollees for a total of
4,065 beneficiaries.

Scope and data collection

Since this study’s primary focus is the Medicare beneficiaries’ perceptions of their risk
HMO experiences, we only collected information from them. We surveyed both enrollees
and disenrollees to compare their responses, and thus, to gain greater insight into HMO
issues. We did not contact          or their staffs, nor did we attempt to assess the quality
or propriety of medical care rendered by the           to these beneficiaries. We initially
mailed structured survey forms to 4,065 beneficiaries in early August 1996. In
September 1996, we mailed a follow-up letter and second survey form to non-respondents;
we closed data collection in October 1996.

With the exception of four questions on overall ratings of their HMO experiences, we did
not directly and specifically ask beneficiaries about their satisfaction with the
Instead we asked for more concrete details on beneficiaries’ perceptions and experiences,
such as, how long were waits for appointments, or how often, if ever, did a primary
physician fail to take health complaints seriously. Both enrollees and disenrollees
provided information on sample and demographic data, enrollment experience, past health
status and functional level, cost of HMO membership, HMO environment, and available
HMO services. Additionally, enrollees were asked about current health status and future
plans for HMO membership while disenrollees were asked about health status at
disenrollment and reasons for disenrollment.

A total of 3,229 survey forms were returned. Of these, 3,003 were           yielding an
unweighted return rate of 74 percent overall, 82 percent for enrollees (N= 1,665) and 66
percent for disenrollees (N = 1,338).

Weighting and interpretation

We weighted the collected data to reflect a non-response bias, differences in enrollment
size among the sampled           and distribution of enrollees and disenrollees in the
universe. To determine non-response bias, we tested unweighted data for differences of
means and proportions to discern significant differences between respondents and
respondents by four demographic characteristics -- age, race, sex and number of months
enrolled in the sampled HMO. Since significant differences did exist, we conservatively
weighted the sample to approximate the response rate per stratum per sampled HMO.’
The weighted data also approximates the relative Medicare enrollment sixes of the
sampled          and the disproportionate distribution of enrollees and disenrollees in the
universe (97% vs. 3%) for the sampling              For 1996, disenrollees from the
sampled          were about 13 percent of enrolled HMO members. We calculated this by
taking the mean of the 1996 disenrolhnents for the sampled



                                            A - 2

The results are generalizable to the 132        described in the sampling section, but not
to those that didn’t meet our sampling parameters. However, the beneficiary universe
from which we sampled our enrollees and disenrollees was 96 percent and 99 percent,
respectively, of enrollees and disenrollees who were members of all 208          for 3
months or            Further, our universe of enrollees and disenrollees was 87 percent
and 85 percent of all Medicare risk enrollees and disenrollees.

Because of the imbalance between enrollees and disenrollees, we primarily analyzed the
two groups separately. Comparisons between enrollees and disenrollees, or
populations of them form the basis for all tables in this report, particularly when these
groups differed markedly in reporting their HMO experiences. All tables show the
weighted percentages with the weighted number of respondents in parentheses.’
Additionally, we computed 95% confidence intervals and statistical significance for key
questions (see Appendix B). A few of the confidence intervals are quite broad,
particularly for disenrollees, due to the small number of responses for some questions.

Comparability of 1993 and 1996 data

A core set of questions on enrollment experience and access to services appears in both
the 1993 and 1996 survey forms. Throughout the report, we present this comparative data
for key questions. One caveat is that for our 1993 study of beneficiary perspectives of
Medicare risk           we selected the sample somewhat differently. At the first stage,
selection of         we divided the universe into three strata based on disenrollment rates
because we intended to study the usefulness of disenrollment rates as performance
indicators. Our focus with the 1996 data does not include that line of inquiry. Also in
1993, we did not place any sampling limits on the length of an HMO’s participation in the
Medicare risk program or on its enrollment size. At the second stage, selection of
beneficiaries, the processes were similar in 1993 and 1996 except that in 1993 we did not
exclude beneficiaries who had less than three months’ experience with the sampled HMO.
However, a comparison of 1993 key questions, tabulated with and without responses from
beneficiaries enrolled less than three months, usually showed a small difference of 1
percentage point or less.

Despite the differences in sample selection, the        and beneficiaries sampled in 1993
and 1996 appear to have similar characteristics in the same proportions (see Appendix C).
The          are predominantly       models and for-profit. Enrollees and disenrollees are
predominantly female, white, age 65 or older, and high school graduates or higher. The
average length of enrollment in the sampled           calculated from HCFA data, is
shorter in 1996. This is not surprising, however, given the rapid growth in the Medicare
risk HMO program between 1993 and 1996. One difference is that a higher percentage of
enrollees in 1996 report prior experience with HMO care before enrolling in the sampled
HMO.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.



                                           A - 3

APPENDIX A -


 1.	   Penchansky, Roy, DBA, and J. William Thomas,          “The Concept of Access:
       Definition and Relationship to Consumer Satisfaction, Medical Care, February
       1981,       127-140.

       Thomas, J. William,        and Roy Penchansky, DBA, “Relating Satisfaction With
       Access to Utilization of Services, Medical Care, June 1984,
2.     The Penchansky and Thomas five dimensions of access to services are:

       a.	    Availability - the relationship of the volume and type of existing services
              (and resources) to the client’s volume and types of need. It refers to the
              adequacy of supply of medical providers, facilities and specialized programs
              and services, such as mental health and emergency care.
       b.	    Accessibility - the relationship between the location of supply and the
              location of clients, taking account of client transportation resources and
              travel time, distance and cost.
       C.	    Accommodation - the relationship between the manner in which the supply
              resources are organized to accept clients (including appointment systems,
              hours of operation, walk-in facilities, telephone services) and the client’s
              ability to accommodate to these factors and the client’s perception of their
              appropriateness.
       d.	                  - The relationship of prices of services and the providers’
              insurance (or deposit requirements) to client’s income, ability to pay and
              existing health insurance. Client perception of worth relative to total cost is
              a concern, as is client knowledge of prices, total cost and possible credit
              arrangements.
       e.	    Acceptability - the relationship of clients’ attitudes about personal and
              practice characteristics of providers to the actual characteristics of existing
              providers, as well as to provider attitudes about acceptable personal
              characteristics of clients. In turn, providers have attitudes about the
              preferred attributes of clients or their           mechanisms. Providers
              may be unwilling to serve certain types of clients or, through
              accommodation, make themselves more or less available.
3.	    Actually, the sample is a mix of        and competitive medical plans (CMP).
       Since the rules governing their             in the Medicare risk program are the
       same, we use HMO to refer to both.
4.	    Of the 3,229 returned survey forms, 226 were not usable: 58 were returned for
       bad addresses, with no known forwarding address; 129 were not usable because the
       beneficiary was deceased or was unwilling/unable to complete the survey form; 39
       were not usable because the beneficiary’s responses indicated (s)he may not be



                                           A - 4

      referring to the sampled HMO, or few to none of the key questions were
      answered.

5.	   The range of response rates for unweighted data per HMO was 59 percent to 92
      percent for enrollees and 43 percent to 84 percent for disenrollees.

6.    Formulas used to weight data:

             Enrollees

                                                         Enrollee universe per
                    HMO universe (N = 132)                  sampled HMO
                                             X
                     HMO sample (N = 40)              Sampled enrollees per HMO

             Disenrollees
                                                       Disenrollee universe per
                    HMO universe (N = 132)                 sampled HMO
                                             X
                     HMO sample (N =              Sampled disenrollees per HMO



7.
                            Comparison of Beneficiary Universe Size
                                                                                            -
                                                                            All members
                                                                            (208


                                                                                  130,436



8.	   For those tables that do not show the proportion of all beneficiaries answering a
      question, that proportion is usually the same as or one point       that of the
      proportions shown for enrollees.
9.	   Respondents did not answer every survey question. Many respondents were not
      eligible to answer every item because the survey form used screening questions.
      Thus, the weighted value of the beneficiaries eligible to answer varied by question.
      Some beneficiaries simply did not answer questions for which they were eligible.
      To accommodate these two factors, we calculated a response rate for each question
      based on the weighted value of eligible respondents. Questions with response rates
      of less than 50% are not reported. The majority of questions had response rates of
      80 % to 99 % . In addition, percentages throughout the report are based only on the
      weighted responses to each question, not on the weighted value of all survey
      respondents.




                                             A - 5

                  APPENDIX B


Point Estimates, Confidence Intervals and Statistical Significance
                   for Key Survey Questions




                              B-l
                           Table B-l : Point Estimates, Confidence Intervals, and Statistical Significance for Key Questions

KEY:    = statistical significance tested                         = difference is significant at       level                             ns = not significant at    level

                                                                        Enrollees                                                        Disenrollees

                                                 Point Estimate     Standard Error      95% Confidence              Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                               Interval                                                         Interval

   Believed care given by PCP was good to           90.78                1.22             88.4 - 93.2                  71.97             2.75             66.6 - 77.4
   excellent.

   Believed HMO was good to excellent in            91.49                1 .oo            89.5 - 93.5                  69.06             3.08             63.0 - 75.1
   orovidina needed services.

   Believed HMO rules made getting needed           66.92                1.86             63.3 - 70.6                  51.80             3.45             45.0 - 58.6
   services easy or very easy.

   Believed HMO was definitely worth the cost       57.11                2.14             52.9 - 61.3                  44.99             3.73             37.6 - 52.2
   of Medicare and/or HMO premiums.

   Health at enrollment was:
           good to excellent                         74.92               1.32             72.3 - 77.5                   71.30            2.16             67.1 - 75.6
           fair                                      20.83               1.19             18.5 - 23.2                   23.85            2.18             19.6 - 28.1
           poor to very poor                          4.25               0.65              3.0 - 5.5                     4.81                              3.0 - 6.6

   Health at time of survey was:
           good to excellent                         69.17               1.45             66.3 - 72.0                   63.12            2.06             59.1 - 67.2
           fair                                      25.50               1.47             22.6 - 28.4                   26.28            1.46             23.4 - 29.1
           poor to very poor                          5.33               0.70              4.0 - 6.7           **       10.60            1.61              7.4 - 13.8

  Reported medical care through HMO caused
   health to:
            improve                                  43.28               1.75             39.9 - 46.7                   29.56            2.05              25.5 - 33.6
            worsen                                    2.57               0.57                 1.5 - 3.7        **       11.31             1.73              7.9 - 14.7

   Asked at application about health problems.       17.74               1.91             14.0 - 21.5                   19.90            4.05              12.0 - 27.8

   Didn’t know they could change their minds          8.96               1.46                 6.1 - 11.8                14.97            2.10              10.9 - 19.1
   about enrolling after they applied.

   Didn’t know         must give referrals to        13.68               1.36             l l . O - 16.3                13.96             2.28              9.5 - 18.4
   specialists.




                                                                                     B - 2

                           Table B-l : Point Estimates, Confidence Intervals, and Statistical Significance for Key Questions

KEY:      = statistical significance tested                         = difference is significant at          level                             ns = not significant at   level

                                                                          Enrollees                                                           Disenrollees

                                                   Point Estimate     Standard Error      95% Confidence                 Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                                 Interval                                                           Interval

    Didn’t know they must use HMO                      4.84               0.86                  3.2 - 6.5                    5.71             1.16              3.4 - 8.0
    doctors/hospitals (except emergency and
    urgent care outside service area).

     Didn’t know they had the right to appeal         26.67                1.78             23.2 - 30.2                     35.26             2.02             31.3 - 39.2
             refusals to provide/pay   services.

     Didn’t know they had the right to formally       27.84               2.09              23.7 - 31.9                     39.87             2.08             35.8 - 44.0
              about other                                                                                                                                                       II

     Didn’t know about both appeal and                23.72                1.87             20.1 - 27.4                     33.88             1.93             30.1 - 37.7
     grievance rights.

    Were aware of complaint rights but had not        71.86                1.96             68.0 - 75.7                     58.52             1.97             54.7 - 62.4
    filed.

    Did not file because they had no problems
     with HMO.                                        96.11                0.74             94.7 - 97.6                     81.13             4.04             73.2 - 89.0

    Were aware of complaint rights and had             2.92                0.56                 1.8 - 4.0           **        7.19            1.97
     filed.

     Of these, didn’t feel complaint was handled       35.87              10.97             14.4 - 57.4                     41.59              13.7            14.7 - 68.4
     fairly.

     Were not aware of rights, but would have          54.92               4.30             46.5 - 63.3                      54.98             5.10            45.0 - 65.0
     filed if aware.                                                                                                                                                            II

     Waited for scheduled appointments
            1 to 8 days                                79.36               1.97             75.5 - 83.2                      78.05             1.79            74.5 - 81.6
            13 to       days                           13.14               1.89              9.4 - 16.8                      13.38             1.63            10.2 - 16.6

     Of those who had been very sick, didn’t get        4.07               0.91                 2.3 - 5.9           **       14.81            2.39             10.1 - 19.5
~    an appointment within a day or two.




                                                                                       B - 3

                          Table B-l: Point Estimates, Confidence Intervals, and Statistical Significance for Key Questions

KEY:   = statistical significance tested                       = difference is significant at          level                             ns = not significant at    level

                                                                     Enrollees                                                           Disenrollees

                                                    Estimate     Standard Error      95% Confidence                 Point Estimate   Standard Error     95% Confidence
          of beneficiaries:                                                             Interval                                                            Interval

  Of those needing to see a specialist, waited
  for scheduled appointments:
          1 to 8 days                             69.55              2.80              64.1 - 75.0                     64.05             2.74             58.7 - 69.4
          13 to       days                         2.07              1.36               9.4 - 14.7                     12.49             1.59              9.4 - 15.6

 Waited for PCP in office and exam room:
          half hour or less                       87.15               1.42             84.4 - 89.9                     74.91             3.02             69.0 - 80.8
          longer than half hour                   12.85               1.42             10.1 - 15.6                     25.09             3.02             19.2 - 31 .o

  Encountered busy appointment telephones:
          all to most of time                      9.74               1.34              7.1 - 12.4             **       15.65            1.69             12.3 - 19.0
          a few times to never                    82.62               1.61             79.5 - 85.8             **       75.82            2.12             71.7 - 80.0

  Gave up trying to make appointments due to       5.57               1.27                 3.1 - 8.1           **       12.12            1.51               9.2 - 15.1
  busy telephone lines.

 PCP failed to provide needed
  covered services:
          yes                                      3.36               0.65              2.1 - 4.6              **       12.13             1.73             8.7 - 15.5
          no                                      96.64               0.65             95.4 - 97.9             **       87.87             1.73            84.5 - 91.3

  Of those needing to see a specialist, PCP       95.01               0.76             93.5 - 96.5                      85.82            2.27              81.4 - 90.3
  never failed to give referral.

  Of those who had health problems, PCP           89.63               0.90             87.4 - 91.4                      77.05             2.19             72.8 - 81.3
  usually explained all treatment options.

  Were seen only b y a member of doctor’s          6.97               0.88                 5.2 - 8.7           **       15.91             2.16             11.7 - 20.1
  staff when they had doctor’s appointment.

  Of these, happened 2 to       times in last 6   41.90               7.07             28.0 - 55.8                      53.48             8.55             36.7 - 70.2
  months.




                                                                                  B - 4

                           Table B-l : Point Estimates, Confidence Intervals, and Statistical Significance for Key Questions

KEY:    = statistical significance tested                           = difference is significant at          level                              ns = not significant at    level

                                                                          Enrollees                                                            Disenrollees

                                                   Point Estimate     Standard Error      95% Confidence                  Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                                 interval                                                            interval

  Women who were offered a: Pap test                  58.21               3.27              51.8 - 64.6                      50.10             2.47             45.3 - 55.0
                             mammogram                70.59               2.78              65.1 - 76.0                      59.63             2.72             54.3 - 65.0

   Beneficiaries who were offered none of
   preventive or screening services.                   5.05                1.03                 3.0 - 7.1                     7.07             1.95              3.2 - 10.9

  Of those needing non-routine services, had
  to wait for HMO pre-approval.                       12.67               2.13                  8.5 - 16.8                   23.57             2.56             18.6 - 28.6

  Of these, waited for HMO pre-approval 5
   times in last 6 months.                             0.97               0.99                  0.0 - 2.9           **        6.99             3.18              0.8 - 13.2

  Of these, waited for pre-approval:
           C   l                                      54.93               7.46              40.3 - 69.6             ns       41.63             6.47             28.9 - 54.3
           3 weeks or longer                          13.73               4.06               5.8 - 21.7             **       26.87             9.10              9.0 - 44.7

  Had sought out-of-plan care.                          5.82              0.91                  4.0 - 7.6           **        10.26            1.63              7.1 - 13.5

   Of these, believed they:
          needed the care even if HMO would           32.88                4.82             23.4 - 42.3                      32.44             7.33             18.1 - 46.8
           not approve it.
          wouldn’t have to pay for it.                  2.77               1.61                 0.0 - 5.9           * *       19.54            7.06              5.7 - 33.4

  Of those using emergent or urgent care               10.25               2.24                 5.9 - 14.6                    20.13            4.12              12.1 - 28.2
   services, HMO refused to pay.

  Of women answering re: HMO policy for
   requiring a referral to a gynecologist, said:
           referral required                           34.08               3.46             27.3 - 40.9                       60.79            4.62             51.7 - 69.8
            don’t know                                 38.01               3.14             31.9 - 44.2             **        15.75            3.19              9.5 - 22.0

  Of women        answering regarding HMO              64.33               3.91             56.7 - 72.0                       80.41            5.76             69.1 - 91.7
   policy for a referral to a gynecologist, said
   they didn’t need to see a gynecologist.



                                                                                       B - 5

                           Table B-l : Point Estimates, Confidence Intervals, and Statistical Significance for Key Questions
                                                                                                                                                                             II
KEY:    = statistical significance tested                   ** = difference is significant at           level                             ns = not significant at    level

                                                                      Enrollees                                                           Disenrollees

                                                Point Estimate    Standard Error      95% Confidence                 Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                              interval                                                           Interval

   PCP at sometime had failed to take health        7.00                                    5.2 - 8.8                   18.66             1.68             15.4 - 22.0
   complaints seriously.

   Of these, happened all to most of time          28.25              7.74              13.0 - 43.4                     40.46             5.34             30.0 - 50.9       II

  Believed most important to        was:
           giving best care possible               73.94              1.75              70.1 - 77.4                     57.27             2.88             51.6 - 62.9
           holding down cost of care                7.08              0.85               5.4 - 8.7              **      14.96             2.39             10.3 - 19.6

  Believed most important to         was:
                                                                                                                                                                -
            holding down
            giving best    cost
                        care    of care
                             possible              15.03
                                                   61.66              1.13
                                                                      1.32              12.8 -- 64.2
                                                                                        59.1    17.2            **
                                                                                                                **      26.50
                                                                                                                        43.31             2.64
                                                                                                                                          3.97             21.3 - 31.7
                                                                                                                                                           35.5              II

  Were encouraged to leave the HMO.                  1.21             0.37                  0.5 - 1.9           **        6.99            1.31               4.4 - 9.6        II

   Most important reason for joining the HMO        53.8              1.55              50.8 - 56.8                      54.73            3.00             48.9 - 60.6
   was wanting more affordable health care.

   Would be less likely to join an HMO if           16.37              1.05             14.3 - 18.4                      33.25            3.20             27.0 - 39.5
   required to remain a member for a year.

   Enrollees who had no plans to leave their        92.70                               91 .o - 94.4


   Disenrollees who left their        for                                                                                30.79            6.26              18.5 - 43.1
   administrative reasons.




                                                                                   B - 6

                                      Table B-2: Point Estimates, Confidence Intervals, and Statistical Significance
                                                              for Key 1993-96 Questions

       = statistical significance tested                         = difference is significant at       level                             ns = not significant at    level

                                                                       Enrollees                                                  Disenrollees

                                                            1993                       1996                            1993                         1996
                                                     Point Estimate and         Point Estimate and              Point Estimate and           Point Estimate and
Proportion of beneficiaries:                        95% Confid. interval       95% Confid. interval            95% Confid. interval         95% Confid. interval

 Asked at application about health problems              42.9%                        17.7%               **        48.3%                           19.9%           **
                                                      (35.4 - 50.4)                (14.0 - 21.5)                 (39.5 - 57.1)                   (12.0 - 27.8)

  Encountered busy appointment telephones all            18.8%                         9.7%               **        34.2%                           15.7%           **
  to most of time                                     (13.2 - 24.4)                (7.1 - 12.4)                (24.3 - 44.0)                     (12.3 - 19.0)

 PCP at sometime didn’t take health                       11.6%                        7.0%               **         38.8%                          18.7%           **
  complaints seriously                                 (8.6 - 14.5)                 (5.2 - 8.8)                   (27.6 - 50.1)                    5.4 - 22.0)

 Reported medical care through HMO caused                   NA                          NA                           21.9%                          11.3%           **
  health to worsen                                                                                                (12.8 - 31.1)                  (7.9 - 14.7)

 Had sought out-of-plan care                                NA                          NA                           22.1%                          10.3%           **
                                                                                                                  (15.5 - 28.7)                  (7.1 - 13.5)

  PCP didn’t fail to provide needed                         NA                          NA                           78.1%                          87.9%           **
   covered services.                                                                                              (70.0 - 86.2)                  (84.5 - 91.3)

   Believed holding down cost of care was most
   important to:

     primary care physician                               9.6%                          7.1%                         27.6%                          15.0%
                                                     (5.9 - 13.3)                    (5.4 - 8.7)                  (17.6 - 37.5)                  (10.3 - 19.6)
     HMO                                                  10.8%                        15.0%                         35.0%                          26.5%
                                                       (8.3 - 13.4)                (12.8 - 17.2)                  (25.5 - 44.4)                  (21.3 - 31.7)




                                                                                   B - 7

                                               APPENDIX C

                                  DEMOGRAPHIC COMPARISON OF 1993 AND 1996 DATA

                                                     BY BENEFICIARY
                                                       Weighted Data
        Demographics                  Enrollees ‘93           Enrollees ‘96            Disenrollees      Disenrollees
                                                                                           ‘93               ‘96

        SEX
          Female                    60% (650,984)          56%                        53%   5,065)      55 % (34,004)
          Male                      40% (433,067)          44% (968,928)              47% (13,139)      45% (27,910)


           White                    90% (966,213)          83%      2,704)            88% (24,872)      82% (50,565)
           Non-White                 7% (80,352)            11% (242,742)             12% (3,332)        8% (5,243)
           Unknown                   3% (37,486)             6% (140,247)                  0            10% (6,106)

        AVERAGE AGE                     74 Years                   73 Years              73 Years         72 Years

        EDUCATION
            Than High School        25%    (268,473)        20%      (432,333)        20% (5,683)       19%   (11,564)
         High School Diploma        29%    (312,201)        30%      (648,906)        22% (6,238)       24%   (15,226)
         > Than High School         42%    (460,539)        44%      (978,774)        49%   3,778)      45%   (27,790)
          No Response                4%    (42,838)          6%     (135,679)          9% (2,504)       12%    (7,335)

        MEDICARE
        CATEGORY
          Aged                     97%                     96%                        92% (25,907)      93% (57,687)
                                     3% (31,513)             4% (97,229)               8% (2,296)        7% (4,227)

        HMO EXPERIENCE
          Prior Experience          14% (148,072)           26% (560,948)             21% (5,997)       21%   2,996)
          No Experience             82% (887,056)          66%                        71% (19,905)      71% (39,212)
          No Response                4% (48,923)             8% (183,466)              8% (2,302)        8% (4,853)

        AVERAGE LENGTH
        OF TIME IN HMO                36 Months                34 Months               29 Months         21 Months



                                                          BY HMO


        YEAR                         MODEL TYPES                                 TAX STATUS                   STATES

                                             Group         Staff                            Nonprofit          Number

        1993                 30 (67%)      9 (20%)      6 (13%)               33 (73%)      12 (27%)             22
        1996                 29 (73%)      8 (20%)       3 (8%)               28 (70%)      12 (30%)             19




For the 1996 survey, no ESRD beneficiaries were selected in the disenrollee sample.


                                                             C-l
                                    APPENDIX D

            SUPPLEMENTARY TABLES FOR BENEFICIARY SURVEY FINDINGS




                          Table D-l: Beneficiaries’ Health and Functional Status

                                                              Enrollees                             Disenroliees

                                                   1993                   1996                  1993              1996

 While in the HMO, reported no serious             67%                    61%                    69%              64%
 health problems, e.g. broken bones or           (653,180) (1                                  (16,440)         (43,058)
 cancer.

                                                       Enrollees 1996                           Disenrollees 1996

While in the HMO, reported no serious                           46%                                      49%
health problems which include diabetes,                      (971,796)                                 (28,578)
lung problems, and “other”.

Had no functional limitations (activities of                    68%                                      71%
daily living).                                                                                         (40,898)

Had no serious health problems        no                        41%                                      43%
functional limitations.                                      (834,681)                                 (24,392)

  For comparative purposes, excludes diabetes, lung problems, and “other” category of serious health
   problems reported by beneficiaries.




                  Table D-2: Beneficiary Self-Reported Changes in Health Status                 1996

                          Enrollees’ Health at Enrollment                        Disenroiiee               at Enrollment

                        Excellent       Fair      Poor to                        Excellent
Health                  to Good                  Very Poor                       to Good
               Total     (75%)                     (4%)            Total          (73%)

Excellent                 86%          23%           7%                            83%
to Good       (69%)                   (91,596)     (5.994)         (64%)         (26,745)

                          12%          70%          36%                            13%           70%              25%
Fair                    (181,654)                  (27,672)                                     (13,418)

Poor to                    2%           8%          57%                             4%           20%              66%
Very Poor      (5%)                  (31,147)      (44,349)        (11%)                         (1.896)         (1,460)


 In 1996, 67% of enrollees and 60% of disenroliees had been enrolled in the sampled                    for more than
   12. months.




                                                   D - l
                                       Table D-3: Appointment Times                                     II




    Were able to get a doctor’s appointment in     94%             96%        65%             85%
    a day or 2 when they were very sick.         (636,620)                  114,579)        126,301)

    For a scheduled appointment with their
    primary HMO doctors, usually waited:

            1 to 4 days                             52%            58%        52%             49%
                                                 (484,306)      (990,519)   (11,876)        (24,800)
            5 to 8 days                             26%            22%        23%             29%
                                                 (245,809)      (375,635)                   (14,819)
     .                                               6%             8%        7%
                                                  (58,994)      (129,013)   (1,594)         (4,Z9,
            13 to more than 20 days                 16%            13%        18%             13%
                                                 (150,632)      (226,212)                   (6,972)

I                                                    Enrollees 1996          Disenrollees 1996         II

    For a scheduled appointment with
    specialists, usually waited:

     .      1 to 4 days                                      40%                   32%
                                                             19,608)             (I 0,473)
            5 to 8 days                                      30%                   33%
                                                                                 (10,822)
                                                          13%                       17%
                                                          68,415)
     �      13 to more than 20 days                       18%                         19%
                                                       (23 1,604)

    Usually waited in the office and exam room
    before seeing their primary HMO doctors:

            less than     hour                               87%                   75%
                                                      (I                         (40,707)
               hour to 1 hour                             12%                      21%
                                                       (236,776)                   1,604)
     .      more than 1 hour                               1%                       4%
                                                        (23,847)




                                                  D - 2

                        Table           Appointment Handled by Nurse or Technician - 1996

                                                                        All        Enrollees    Disenrollees

     Seen      by a nurse or technician when beneficiary had           7%            7%             16%
     an appointment with primary HMO doctor.                        (150,091,     (141,467)       (8,624)
     In the last 6 months, for those who could remember,
     this happened:

              1 time                                                  58%            59%           47%
                                                                    (54,028)       (51,976,       (2,052)
             2 times                                                  30%            30%           29%
                                                                    (19,954)       (18,670)       (1,284)
             3 times or more                                          12%            11%           24%
                                                                                   (10,021)




II                                      Table D-5: Non-Routine Services - 1996

                                                                      All        Enrollees     Disenrollees

     Experienced delays in non-routine services because               13%           13%           24%
     HMO had to approve them first.                                (184,653)     (175,330)       (9,323)

     Non-routine services for which they experienced delays.

             referrals to specialists                                 63%           63%           69%
                                                                   (113,305)     (106,919)       (6,386)
      .      physical therapy                                         24%           25%            10%
                                                                    (43,287)      (42,338)
             special tests, e.g., CAT scan, stress test               17%           17%           20%
                                                                    (31,012)      (29,182)         ,830)

     In the last 6 months, waited for HMO approval of
     routine services:

             1 or 2 times                                             77%           77%            64%
                                                                   (118,448)     (113,150)       (5,298)
             3 or 4 times                                             21%           20%           26%
                                                                    (31,919)      (29,753,       (2.161)
             5 or more times                                           3%            2%            10%
                                                                     (4,235)

     In the last 6 months, usually waited for HMO approval:

             less than 1 day to 6 days                               54%           55%           42%
                                                                   (83,384)              1)     (3,333)
             1 to 2 weeks                                            31%           31%           32%
                                                                   (48,204)      (45,681)       (2,523)
      .      3 weeks or longer                                       14%           14%           27%
                                                                   (22,157)                     (2,151)




                                                        D - 3

                Table D-6: Routine Preventive and Screening Services Offered in the Last Year
                                  Compared to Healthy People 2000 Goals’

                                            Healthy People 2000                         Enrollees                                   Disenrollees
Standard                                      Goal       Progress             All            mos.       12 mos.            All             mos.        mos.

Pap test:                                    70%           53%               58%          53%           61%               50%           36%         59%
women aged            uterine cervix;’                     1994            (634,286)     (184,504)    (449,781)          (14,689)                  (10,533)
received test w/in preceding 1 to 3 yrs.

mammogram:                                   60%           45%               71%          64%            74%              60%           49%         66%
women aged        who received breast                      1994            (769,140)     (223,060)    (546,080)          (17,515)      (5,616)     (11,899)
exam and test w/in preceding 2 years

prostate cancer screen:                      40%           38%               58%           60%           57%              59%           53%         62%
men aged        received digital rectal                    1992            (502,610)     (160,553)    (342,057)          (13,990)                  (3,917)
exam during the last year

blood pressure reading:                       NA            NA               83%           83%          84%               83%           78%         85%
no standard that approximated our data                                                   (512,760)                       (43,781)      (14,704)    (29,077)

blood cholesterol screen:                     75%         54%                65%           61%          67%               65%           59%         68%
adults           who had blood                          1993 w/in                        (380,930)     (894,370)         (34,346)      (11,146)    (23,200)
lesterol checked w/in preceding 5 yrs                    2 years

colon cancer screen:
  fecal occult blood test w/in                50%                            31%           30%          31%               27%           20%         31%
   preceding 2 years                                                        (608,881)    (188,429)     (420,452)         (14,312)       (3,669)    (10,643)
   proctosigmoidoscopy ever received          40%

flu                                           80%           NA               63%           52%           69%              61%           43%         70%
older people                                                                             (321,218)     (920,362)                        (8.137)    (23,916)

pneumonia immunization:                       80%           NA               36%           29%           39%              32%           29%         34%
older people                                                                (697,195)    (181,448)     (515,747)           6,978)                  (11,609)

none of these services offered                 NA           NA                 5%           6%            5%                7%            9%          6%
                                                                            (98,974)      (37,193)     (61,781)                         (1.646)     (2,061)




   Does not include beneficiaries who said they had not seen an HMO doctor or had not received any health care services through the HMO while they had been a
   member.

   Number of sampled Medicare women with uterine cervix is unknown.


   36% in 1992, people aged         who had fecal blood test with a routine checkup in past 2 years


   Since this is a seasonal service, the rate for > 12 months is probably a more accurate indicator within the beneficiary data.

                                        Table D-7: Seeking Out-of-Plan Care

                                                             Enrollees                      Disenrollees

                                                      1993               1996         1993               1996

Beneficiaries who went out-of-plan                     7%             6%              22%                 10%
                                                    (65,629)       (113,168)         (5,187)            (5,144)

                                                        Enrollees 1996                 Disenrollees 1996

Beneficiaries went out of plan because:

     .        Needed care even if HMO would                  32%                               32%
              not approve                                  (36,715)                           (1,662)
     .        Temporarily out of                              19%                              25%
              service area                                 (22,077)                           (1,287)
              Couldn’t get HMO services                       15%                               11%
              quickly enough                               (16,657)
              Didn‘t think they would have to                  3%                              20%
                                                            (3,148)                          ( 1 , 0 0 1 ,
     .        Primary HMO doctor wouldn’t                      9%                              10%
              make referral to specialist
              Primary HMO doctor wasn’t                      8%                                12%
              helping beneficiary                         (9,187)




                            Table D-8: Other Components of Enrollment Decisions 1996

                                                                         All    Enrollees        Disenrollees

Immediately before joining the HMO, source of health
care was:

 .            another HMO                                             28%         28%               23%
                                                                   (573,944,    (560,948,         (12,996)
 .            non-HMO doctor                                          54%         54%               58%
                                                                  (1                              (33,168)
              no regular source                                       15%          15%              16%
                                                                   (300,241)    (291,207)
 .            other                                                    4%           4%                3%
                                                                    (81,651)     (79,788)          (1,863)

Beneficiaries who pay no HMO premium.                                43%           43%              39%
                                                                   (933,966,    (910,814)         (23,152)
         those who do pay a premium, the monthly amount
s:

              $1 to $19                                               29%                           27%
                                                                   (296,430)    (288,107)          (8,323)
                      $39                                             30%          30%              45%
                                                                   (321,103)'   (306,954)         (14,149,
 .                    $59                                             29%          29%               14%
                                                                   (298,032)    (293,810)          (4,222)
              $60 to $79                                               6%           6%                7%
                                                                    (87,226)     (85,167)
 .            $80 or more                                              4%           4%                  8%
                                                                    (44,185)     (41,735)




                                                      D -5

               Table D-9: Disenrollees’ Most Important Reasons for Leaving Their

                                                                              Percent   Beneficiaries

ADMINISTRATIVE REASONS (total)                                                 31%        11,262

         Moved or frequently out of service area                               18%         6,439

         Membership ended involuntarily (clerical error, HMO no longer          2%           819
         part of retirement benefit, unpaid premium)

    .    Changed plan within HMO, or other administrative change               11%         4,004

HEALTH CARE DELIVERY SYSTEM (total)                                            42%        15,190

         Discomfort/dislike of HMO restrictions or way of doing business        3%           996

    .    HMO not what expected based on enrollment information (costs,          3%         1,030
         covered services, or restrictions)

         Cost only or cost vs. service benefit (excluding Rx) too high;        8%          2,867
         another HMO was better deal

         Doctors/hospitals not conveniently located                            3%          1,110

         Doctors or hospitals no longer with HMO; may have followed            8%          2,735
         doctor to new HMO

 .       Not enough choice of or disliked doctors/hospitals; preferred         9%         3,219
         provider not with HMO

         Joined another HMO; no specific reason given                          2%           831

 .       Other coverage (e.g. Medicaid, VA) or setting (e.g. nursing           4%          1,292
         home)

         Combination of reasons/other reasons                                  3%             10

         TO MEDICAL SERVICES (total)                                           18%         6,779

 .      Appointment difficulties                                               1%           392

 .       Billing disputes or HMO slow to pay providers                         1%           376

 .       Referral problems (denied or difficult access to services)            2%           846

 .      Not personally well-treated by PCP/HMO personnel (rudeness,            2%           869
        complaints ignored, doctor rushed or disinterested)

�       Poor quality medical care (wrong diagnosis/treatment, treatment        5%         1,778
        delayed/denied/limited, getting sicker/not getting better, hospital
        discharge too soon, seen by personnel other than doctor).

.       Quality or access compromised by emphasis on cost                      1%           274

.       Combination of or other access problems                                6%         2,244

‘RESCRIPTION DRUGS needed too expensive, not covered; drug                     4%          1,301
        may have changed since enrollment

        desire for better care or combination of reasons among                 6%         2,055
                         Table D-IO: Enrollees’ Plans for Future Health Care

                                                                         1993

Had no plans to leave their present                                      84%         93%
                                                                       (771,929,

Planned to leave because of a move.                                       2%
                                                                       (22,317)     (16:;4)

Planned to leave for reasons other than moving.                           4%           3%
                                                                               1)   (50,780)

Couldn’t leave, but wanted to.                                           10%           4%
                                                                       (93,774)     (74,479)

 Does not total 100% due to rounding.




                                                  D -7

                                    APPENDIX E


          SUPPLEMENTARY AND STATISTICAL TABLES FOR

FUNCTIONALLY LIMITED, DISABLED, AND CHRONICALLY ILL BENEFICIARIES





                     Table E-l: Beneficiary Perspectives and Functional Limits - 1996

                                                           Enrollees                     Disenrollees
Service Access Through Physician                    Limit        No Limits              Limit   No Limits

Received appointment with physician               92%              97%             87%             84%
w/in l-2 days when verv sick.                   (233,233)        (768,985)        (7,320)        (17,717)

Primary physician explained treatment             85%                  91%         68%             79%
options.                                        (280,598)                         (6,742)        (25,390,

Physician failed to give needed                    8%                              20%             11%
Medicare-covered services.                      (26,111)         (35Z7)           (2,047)        (4,136)

Physician failed to admit beneficiary to            3%               1%             8%             4%
hospital when needed.                            (6.110)          (8,241)          (522)          (660)

Physician failed to refer beneficiary to a         6%               5%            25%              12%
specialist when needed.                         (11,235)         (58,280)        (2,072)         (3,313)

                                                          Enrollees                     Disenrollees

Physician Attitudes/HMO Administration            1 Limits       No Limits        1 Limits      No Limits

Physician did not take health                     16%                  5%          24%             17%
complaints seriously.                           (58,381                          (2,418)         (6,444)

Cost most important to primary                     9%                  8%         27%              18%
physician                                       (25,475)              14,317)    (1,795)

Experienced delays in receiving                   16%              11%            30%             22%
       services in past 6 months.               (41,497,        (123,089)        (2,589)         (6,495)

fase of obtaining care was:

 easy or very easy
                                                  55%              70%            40%              55%
 neither easy nor hard                         (184,029)                         (4,388)        (21,128)
                                                  35%              26%             29%            28%
 hard or very hard                                16,287)       (408,357)        (3,198)           0,837)
                                                  11%               5%            31%              16%
                                                (35,229)         (70,889)        (3,468)         (6,225)




                                                 E-l
                     Table E-2: Beneficiary Perspectives and Medicare Status - 1996

                                                         Enrollees                    Disenrollees

Service Access Through Physician                   Aged          Disabled        Aged         Disabled

Received appointment with physician               96%              95%           85%            87%
     l-2 days when      sick.                   (982,645,        (63,365)      (23,952,

Primary physician explained treatment              89%           92%             78%            61%
options.                                                      (73,799)           1,090)        (2,176)
Physician failed to give needed                     3%             4%             11%           27%
Medicare-covered services.                       (62,609,        (3,233)        (5,265)
Physician failed to admit beneficiary to            1%               4%           4%            19%
hospital when needed.                            (12,747)

Physician failed to refer beneficiary to a          4%               16%          13%           36%
specialist when needed.                          (64,581)            2,935)     (4,586)

                                                         Enrollees                    Disenrollees
Physician Attitudes/HMO Administration            Aged           Disabled        Aged         Disabled

Physician did not take health                      7%             13%             17%          39%
complaints seriously.                           (127,608)       (11,106)        (7,943)       (1,441)
Cost most important to primary                     9%               5%           20%            24%
physician.                                      (138,033)        (4,030)        (7,135)
Experienced delays in receiving                    12%            23%            23%           34%
routine services in past 6 months.              (159,867)       (15,463)        (8,222)       (1,101)
Ease of obtaining care was:

 easy or very easy                                68%             45%             52%           45%
                                                              (40,033)         (24,640)          ,640)
 neither easy nor hard                             27%            31%             29%           18%
                                                (517,876)       (26,971)       (13,834)
 hard or very hard                                  5%            24%             18%          37%
                                                 (85,526)       (21,226)        (8,616)       (1.364)




                                                E - 2

                      Table E-3: Beneficiary Perspectives and Chronic Illness - 1996

                                                          Enrollees                      Disenrollees
Service Access Through Physician                 Chron. Ill           Not Ill    Chron. Ill        Not Ill

Received appointment with physician                96%        97%                  86%             86%
w/in l-2 days when verv sick.                    (391,906) (617,497,              (9,342)        (16,033)

Primary physician explained treatment              89%        90%                  76%             77%
options.                                         (500,790) (916,539,             (10,132)        (22,086)

Physician failed to give needed                     5%             3%                  9%           14%
Medicare-covered services.                       (30,957)       (33,800)               ,237)      (4,804)

Physician failed to admit beneficiary to            2%                 2%              8%           3%
hospital when needed.

Physician failed to refer beneficiary to a          6%              5%             17%              13%
specialist when needed.                          (28,345)        (48,883)        (2,043)          (3,237)

                                                          Enrollees                      Disenrollees

Physician Attitudes/HMO Administration           Chron. Ill       Not Ill       Chron. Ill        Not Ill

Physician did not take health                       8%              7%             17%             19%
complaints seriously.                            (48,558)        (89,932)        (2,282)

Cost most important to primary                      8%              8%             18%            20%
physician.                                       (38,964)        (93,132)        (1,874)         (5,359)

Experienced delays in receiving                    12%             13%            32%             20%
routine services in past 6 months.               (56,667)       (111,513)        (3,718)         (5,207)

Ease of obtaining care was:

 easy or very easy                                 70%       65%                  57%               50%
                                                (403,291) (861,301)                              (17,760)
 neither easy nor hard                             23%       30%                  24%              30%
                                                (131,778) (395,847,              (3,314)         (10,462)
 hard or very hard                                  7%        5%                   19%             20%
                                                 (37,884)  (64,139,                               (7,017)




                                                 E - 3

                                     Table E-4: Point Estimates, Confidence Intervals, and Statistical Significance by Functional Status

KEY:     = statistical significance tested                                  = difference is significant at              level                                ns = not significant at              level

                                                                            1 + Functional Limits                                                        No Functional Limits

                                                           Point Estimate     Standard Error      95% Confidence                        Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                                         Interval                                                                  Interval

   Received appointment with physician w/in
   2 days when very sick.

            enrollees                                         91.55               3.59              84.5 - 98.6                            97.42             0.73               96.0 - 98.9
            disenrollees                                      88.64               3.25              82.3 - 95.0                 ns         83.65             2.71               78.3 - 89.0

   Primary physician explained treatment
   options.

            enrollees                                         84.99                2.64             79.8 - 90.2                 **         91.23             0.90               89.5 - 93.0
            disenrollees                                      68.47                5.21             58.3 - 78.7                            79.10             2.87               73.5 - 84.7

   Physician failed to give needed
   covered services.



            enrollees disenrollees                             19.84 7.88          4.13 2.93        11.7 2.1 - - 13.6 28.0      ** **       10.65 2.30       0.46 1.70           7.3 1.4 - - 14.0 3.2     II

   Physician failed to admit beneficiary to
   hospital when needed.

            enrollees                                           2.89               1.55                 0.0 - 6.0               ns           1.19
            disenrollees                                        8.18               3.08                 2.1 - 14.2              ns           3.99

   Physician failed to refer beneficiary to a
   specialist when needed.

            enrollees                                           6.38               2.28              1.9 - 10.8
            disenrollees                                       25.16               5.31             14.8 - 35.6




                                                                                               E - 4

                           Table E-4: Point Estimates, Confidence Intervals, and Statistical Significance by Functional Status

KEY:     = statistical significance tested                         = difference is significant at     level                             ns = not significant at     level

                                                                   1 + Functional Limits                                            No Functional Limits
                                                  Point Estimate     Standard Error      95% Confidence            Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                                Interval                                                      Interval

   Physician did not take health complaints
   seriously.

            enrollees                                16.39               3.29               9.9 - 22.8        **       4.64             0.68                3.3 - 6.0
            disenrollees                             23.90               3.69              16.7 - 31.1        **      16.62             2.19               12.3 - 20.9

   Cost most important to primary physician.

            enrollees                                 9.37                2.70              4.1 - 14.7                  8.35            0.98                6.4 - 10.3
            disenrollees                             26.59                5.29             16.2 - 37.0                 18.63            3.01               12.7 - 24.5

   Experienced delays in receiving non-routine
   services in past 6 months.

            enrollees                                 16.17               3.75              8.8 - 23.5                 11.37            2.35                6.8 - 16.0
            disenrollees                              29.76               6.86             16.3 - 43.2                 22.07            2.42               17.3 - 26.8

   Ease of obtaining care was easy or very easy

            enrollees                                 54.84               3.30             48.4 - 61.3        **       69.51            2.09               65.4 - 73.6
            disenrollees                              39.70               5.50             28.9 - 50.5                 55.32            3.67               48.1 - 62.5

   Ease of obtaining care was neither easy nor
   hard

            enrollees                                 34.66               3.23             28.3 - 41 .O                25.98             1.90              22.3 - 29.7
            disenrollees                              28.93               3.83             21.4 - 36.4                 28.38             2.50              23.5 - 33.3

   Ease of obtaining care was hard or very hard

            enrollees                                 10.50               2.63              5.3 - 15.7        **        4.51             0.78               3.0 - 6.0
            disenrollees                              31.38               2.42             20.2 - 42.6                 16.30             2.42              11.6 - 21.0




                                                                                      E - 5

                           Table E-5: Point Estimates, Confidence Intervals, and Statistical Significance by Medicare Status

KEY:    = statistical significance tested                            = difference is significant at          level                             ns = not significant at    level

                                                                        Age 65 or Older                                                          Disabled

                                                    Point Estimate     Standard Error      95% Confidence                 Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                                  Interval                                                            Interval

   Received appointment with physician w/in
   2 days when very sick.

            enrollees                                  96.01               0.93              94.2 - 97.8                     94.56             3.33            88.0 - 100.0
            disenrollees                               85.00               2.41              80.3 - 89.7                     87.09             6.40            74.5 - 99.6

   Primary physician explained treatment
   options.

            enrollees                                  89.47               0.91              87.7 - 91.3                     92.03             3.09             86 0 - 98.1
            disenrollees                               78.48               2.55              73.5 - 83.5             **      61.03             8.83             43.7 - 78.3

   Physician failed to give needed
   covered services.

            enrollees                                    3.36              0.68                  2.0 - 4.7                    3.67             2.02              0.0 - 7.6
            disenrollees                                11 .oo             1.61                  7.8 - 14.2          **      27.54             8.91             10.1 - 45.0

Physician failed to admit beneficiary to hospital
when needed.

            enrollees                                    1.44               0.48                 0.5 - 2.4                     4.01            2.69               0.0 - 9.3
            disenrollees                                 3.82               1.40                 1.1 - 6.6           **       19.23            8.87               1.8 - 36.6

   Physician failed to refer beneficiary to a
   specialist when needed.

            enrollees                                    4.40               0.68                 3.1 - 5.7           **       16.26            6.10               4.3 - 28.2
            disenrollees                                12.65               2.04                 8.7 - 16.6          **       36.15            8.27              19.9 - 52.4




                                                                                        E - 6

                          Table E-5: Point Estimates, Confidence Intervals, and Statistical Significance by Medicare Status

KEY:    = statistical significance tested                          = difference is significant at    level                             ns = not significant at    level

                                                                      Age 65 or Older                                                    Disabled

                                                  Point Estimate     Standard Error      95% Confidence           Point Estimate   Standard Error     95% Confidence
Proportion of beneficiaries:                                                                Interval                                                     Interval

  Physician did not take health complaints
  seriously.

          enrollees                                    6.75              0.93               4.9 - 8.6                12.83             5.38              2.3 - 23.4
          disenrollees                                17.05              1.86              13.4 - 20.7       **      39.27             8.24             23.1 - 55.4

   Cost most important to primary physician.

          enrollees                                    8.54               1.05              6.5 - 10.6                5.42             3.20              0.0 - 11. 7
          disenrollees                                19.77               3.13             13.6 - 25.9               23.68             9.27              5.5 - 41.8

   Experienced delays in receiving non-routine
   services in past 6 months.

           enrollees                                  12.17               2.04              8.2 - 16.2                23.49            10.15             3.6 - 43.4
           disenrollees                               22.65               2.29             18.2 - 27.1                33.94            11.68            11 .O - 56.8

   Ease of obtaining care was easy or very
   easy.
                                                      68.02               1.84             64.4 - 71.6                45.37             7.80            30.1 - 60.7
           enrollees                                  52.33               3.59             45.3 - 59.4                44.77             8.16            28.8 - 60.8
           disenrollees

   Ease of obtaining care was neither easy nor
   hard

           enrollees                                  27.45               1.68             24.2 - 30.7                30.57             7.22             16.4 - 44.7
           disenrollees                               29.38               2.04             25.4 - 33.4                17.99             6.74              4.8 - 31.2

   Ease of obtaining care was hard or very hard

           enrollees                                   4.53               0.74              3.1 - 6.0        **       24.06             6.15             12.0 - 36.1
           disenrollees                               18.30               3.00             12.4 - 24.2                37.24             8.91             19.8 - 54.7



                                                                                      E - 7

                                     Table E-6: Point Estimates, Confidence Intervals, and Statistical Significance by Health Status

KEY:    = statistical significance tested                                  = difference is significant at                level                              ns = not significant at                level

                                                                               Chronically Ill                                                          Not Chronically Ill

                                                          Point Estimate     Standard Error      95% Confidence                       Point Estimate   Standard Error         95% Confidence
Proportion of beneficiaries:                                                                         Interval                                                                    Interval

   Received appointment with physician within
   l-2 days when      sick.


            disenrollees
            enrollees                                        86.30
                                                             95.56               3.32
                                                                                 2.20             79.8 -- 100.0
                                                                                                  91.2    92.8                           85.53
                                                                                                                                         96.56             2.97
                                                                                                                                                           0.98                79.7
                                                                                                                                                                               94.6 - 98.5
                                                                                                                                                                                      91.4                 II

   Primary physician explained treatment
   options.
                                                                                                                                                                                                           II
            enrollees                                        88.90                2.13             84.7 - 93.1                           90.39             1.51                87.4 - 93.3
            disenrollees                                     75.76                3.33             69.2 - 82.3                           77.47             2.68                72.2 - 82.7

   Physician failed to give needed
   covered services.

            enrollees                                          5.38               1.76                 1.9 - 8.8                 **        2.60            0.63                 1.4 - 3.8
            disenrollees                                       8.77               3.13                 2.6 - 14.9                         13.63            2.50                 8.7 - 18.53

   Physician failed to admit beneficiary to
   hospital when needed.

            enrollees                                         1.60                0.78                 0.1 - 3.1                           1.51            0.59                  0.4 - 2.7
            disenrollees                                      7.80                2.76                 2.4 - 13.2                          3.43            1.78                  0.0 - 6.9

   Physician failed to refer beneficiary to a
   specialist when needed.


            enrollees disenrollees                            17.42 5.57          4.11 2.01            9.4 1.6 - - 25.5 9.5               12.76 5.00       0.99 2.75            7.4 3.1 - - 18.2 6.9       II





                                                                                              E - 8

                                Table E-6: Point Estimates, Confidence Intervals, and Statistical Significance by Health Status

KEY:   = statistical significance tested                              = difference is significant at       level                              ns = not significant at       level

                                                                          Chronically                                                    Not Chronically

                                                     Point Estimate     Standard Error      95% Confidence              Point Estimate   Standard Error     95% Confidence
            of beneficiaries:                                                                  Interval                                                        Interval

  Physician did not take health complaints
  seriously.

            enrollees                                     8.38              2.68               3.1 - 13.6                    6.80             1.02             4.8 - 8.8
            disenrollees                                 17.36              2.73              12.0 - 22.7                   18.87             2.26            14.4 - 23.3

   Cost most important to primary physician.

            enrollees                                     7.79               1.78                 4.3 - 11.3                 8.26            1.10              6.1 - 10.4
            disenrollees                                 18.48               5.23                 8.2 - 28.7                19.83            3.45             13.1 - 26.6

   Experienced delays in receiving non-routine
   services in past 6 months.

            enrollees                                    12.07               2.41              7.3 - 16.8                   12.93            2.56              7.9 - 17.9
            disenrollees                                 32.17               5.14             22.1 - 42.4                   19.69            2.82             14.2 - 25.2

   Ease of obtaining care was easy or very easy

            enrollees                                    70.39               2.46             65.6 - 75.2          ns       65.19            2.29             60.7 - 69.7
            disenrollees                                 56.66               7.97            41.0 = 72.3                    50.40            2.86             44.8 - 56.0

   Ease of obtaining care was neither easy nor
   hard

            enrollees                                    23.00               2.25             18.6 - 27.4                   29.96            2.89             24.3 - 35.6
            disenrollees                                 24.29               4.13             16.2 - 32.4                   29.69            2.13             25.5 - 33.9

Ease of obtaining care was hard or very hard

        �   enrollees                                     6.61               1.42                 3.8 - 9.4                  4.85            0.91              3.1 - 6.6
            disenrollees                                 19.05               5.23                 8.8 - 29.3                19.91            2.73             14.6 - 25.3




                                                                                         E - 9

  APPENDIX F





TEXT OF AGENCY COMMENTS





          F-l
    DEPARTMENT OF HEALTH       HUMAN SERVICES
                        Health Care Financing Administration


                                                                     Washington D.C.          0001


DATE:          MAR
TO:	          June Gibbs Brown
              Inspector General

FROM:	        Nancy-Arm
              Administrator

SUBJECT:      Office of Inspector General (OIG) Draft Report: “Beneficiary Perspectives
              of Medicare Risk Health Maintenance Organizations
              9500430)                                -

We have reviewed the above referenced draft report which describes beneficiaries’
experiences with their Medicare risk      in 1996.

Medicare beneficiaries may join a risk HMO through the Medicare program. In return for
a predetermined monthly amount per enrollee, the         must provide all
covered services that are medically necessary, except hospice care. Once enrolled,
beneficiaries are usually required to use HMO physicians and hospitals. As of October
1997, the Health Care Financing Administration (HCFA) reported 307 risk HMO plans
serviced            Medicare enrollees.

Using HCFA databases, OIG selected a two-stage random sample of 4,065 enrollees and
disenrollees from 40 Medicare risk           Since the report’s primary focus was
Medicare beneficiaries’ experiences in their risk         OIG collected information
directly from them. As in the study conducted in 1993, OIG surveyed both enrollees and
disenrollees to compare their responses, and to gain greater insight into HMO issues.

HCFA concurred with all OIG recommendations. Our detailed comments are as follows:

       Recommendation 1
       should be more closely monitored to assure that they properly inform beneficiaries
about their appeal and grievance rights.

HCFA Response
We concur. HCFA is striving to improve beneficiary outreach and education, especially
for beneficiaries in       to make them aware of their appeal and grievance rights.
HCFA will also be working with the Information Counseling and Assistance
grantees and beneficiary advocacy groups to promote further education to beneficiaries in
this area.
We would add, however, that HCFA’s existing monitoring protocol and the review of
member and marketing materials that takes place by HCFA Regional Office staff, already
incorporates distinct functional components that evaluate plans on their ability to
communicate clearly Medicare beneficiaries’ appeal and grievance rights. In addition,
Medicare beneficiaries are advised of their appeal rights each time a service claim is
denied or service authorization is denied, limited or reduced. HCFA reviews member and
marketing materials on an ongoing basis. Claims and service denials are audited for
compliance at least every two years, and on an as-needed basis.

OIG Recommendation 2
Beneficiaries should be better informed about HMO procedures for obtaining services.

HCFA Response
We concur. The newly developed Medicare managed care database (Medicare Compare)
will assist in improving beneficiaries’ understanding of procedures and restrictions within
managed care plans. The May version of the database will include information about
choice of doctors and whether referrals to specialists are needed. For example, data for
each plan will display one of the following scenarios with respect to physician access:
limitations to the plan’s network of physicians, limitations to group practice physicians,
no restrictions to physicians and/or whether the plan offers an out of network option. If
an enrollee is limited to physicians within the group practice, the database will indicate if
referrals to specialists are needed.

In addition to Medicare Compare, HCFA and its regional offices now can use the
Medicare Managed Care Marketing Guidelines to assist them in oversight activities that
relate to this issue. For instance, the Marketing Guidelines provide health plans with a
model evidence of coverage document that contains standardized                  including
terms such as exclusion, covered service, services not covered and prior authorization.
We believe that use of the Marketing Guidelines will assist HCFA staff in its compliance
efforts, and will help ensure that Medicare beneficiaries receive consistent information.

OIG Recommendation 3
Service access problems encountered by functionally limited, disabled, and chronically ill
beneficiaries should be identified and carefully monitored, as they are especially
vulnerable.

HCFA Response
We concur. Admittedlv, HCFA’s ability to monitor access for all Medicare beneficiaries
enrolled in managed care plans has been limited. We believe, however, that HCFA’s
Quality Improvement System for Managed Care (QISMC) will strengthen our ability to
       and enforce geographically-relevant access-to-care standards. Historically,
HCFA’s and States’ reviews of managed care plans have focused on structural standards
that have looked at a plan’s infrastructure and capacity to            adequate
or to improve care, as opposed to looking at whether the plan actually provided adequate
access to care across all of its populations, including functionally limited, disabled, and
chronically ill populations. In addition to           and elaborating on what
expectations are with regard to health plans’ internal quality assessment and
improvement, QISMC contains a separate domain and substandard that is intended to
ensure that the health plan’s service planning takes into account the needs of its entire
membership and the organization works to reduce barriers to access. QISMC standards
will apply to both Medicare            plans and health plans contracting with State
Medicaid agencies for the Medicaid population. These standards will serve as the basis
for HCFA reviewers to monitor plans’ performance and compliance based on data. For
purchasers, including HCFA and state Medicaid agencies, QISMC will elaborate on the
“tools” available and develop a strategy for purchasers to use to improve the care of their
beneficiaries. Purchasers have a responsibility to use available data and work with plans
to improve the quality of care they deliver. Such tools include standards, publishing data,
technical assistance and collaborative quality improvement projects, and incentives.

In addition to QISMC, the Health of Seniors component of            will help HCFA
assess whether Medicare beneficiaries believe they receive adequate access to health care
services. This survey will reach 1,000 Medicare beneficiaries in all contracting health
plans, including presumably, beneficiaries who are functionally limited, disabled or
chronically ill.

OIG Recommendation 4
Medicare risk          should be monitored for inappropriate screening of beneficiaries’
health status at application

HCFA Response
We concur. We agree that the issue identified in the report warrants carefully regulatory
attention from HCFA. We would add, however that HCFA, through its Regional Offices,
already monitors health plan adherence to prohibitions against pre-enrollment health
screening. This is accomplished as follows:

(1) HCFA staff review all pre-enrollment member, marketing and enrollment materials to
be certain that contracting health plans do not attempt to screen individuals by asking
questions relating to health status. Health plans may ask if the beneficiary is in a hospice,
has end stage renal disease, is eligible for Medicaid, or whether the beneficiary is in an
institution, such as a nursing home, sanatorium or long term care hospital. Health plans
        utilize materials not otherwise approved in advance by the HCFA regional office
staff.
(2) HCFA requires that all contracting health plans incorporate the requirements
mentioned earlier into the organization’s training and employee education programs.
HCFA staff review companies’ printed policies and procedures to be certain that
applicable requirements germane to health screening are fully incorporated into the
documents. HCFA staff routinely review these materials during monitoring reviews.

(3) HCFA staff interview health plans’ marketing directors and marketing staff to assess
their level of understanding of health screening requirements and prohibitions.

OIG Recommendation 5
HCFA should systematically collect and track over time HMO-specific
reported data on access to medical services through their   and reasons for
disenrolhnent.

HCFA Response
We concur. The report mentions that HCFA is planning to release HEDIS measures to
the public. This is correct. We should point out that HEDIS contains 3 measures looking
at access to services--adults’ access to preventive/ambulatory health services, availability
of primary care providers, and availability of behavioral health care providers. These
data would support the recommendation that             data collections should go beyond
relying on general ratings or satisfaction scales.

In addition, we have already added reasons for disenrollment to the form that the Social
Security Administration uses when beneficiaries disenroll at district offices. The
Medicare           Hotline will use this form when it begins to accept disenrollments
some time next year. We collect this information via the Enrollment Broker
Demonstration.

OIG Recommendation 6
HCFA should distinguish between administrative and non-administrative disenrollments.

HCFA Response
We concur. HCFA is aware of the critical need to distinguish between administrative
reasons for disenrollment and “for cause” reasons for               HCFA is currently
developing a more thorough listing of reasons for disenrolhnent from which beneficiaries
can choose when asked why they are disenrolling.

OIG Recommendation 7
HCFA should take steps to better inform older women about gynecological services and
health.
HCFA Response
We concur. The May version of Medicare Compare also has built in specifications about
the annual gynecological exam benefit. For example, if enrollees are limited to
physicians within the group practice, the database will provide further information about
whether referrals are needed and it specifically makes reference when the annual
gynecological exam does not require a referral from the primary care physician.

This information will be available on the Internet as well as print materials, e.g., 1998
Medicare Handbook. The data in Medicare Compare will be used to print out
information by area to all 39 million beneficiaries. In essence, beneficiaries that live in
the Washington, D.C. area will receive a hardcopy of plans that are offered in their local
area and comparison information with respect to benefits and services provided by those
plans including the information above. This effort is part of HCFA’s overall public
education campaign that will take place over the next year.

The beneficiary education plan for expanded Medicare prevention benefits in 1998
consists of two components:

               Phase I, the awareness campaign is a broad dissemination targeting the
               entire Medicare population. A one-page message focusing on informing
               the beneficiary about the availability of new prevention benefits, namely
               annual mammogram, pap smears and pelvic examinations, diabetes
               monitoring and self-management education, colorectal cancer screening,
               and bone mass measurement, was distributed to HCFA partners and
               contractors. addition, the message contained information regarding
               other ongoing covered services                     pneumonia).

               Phase II, the health promotion campaign, will begin later in 1998. This
               phase is designed to encourage appropriate use of the prevention services
               by beneficiaries. In phase II, HCFA will join with the Center for Disease
               Control, Division of Cancer Prevention and Control, to develop a
               beneficiary health promotion campaign focusing on colorectal cancer
               screening. Depending upon the results of the market research, the health
               promotion campaign may also include pap smear and cervical cancer
               screening, and mammography. In addition, we are recommending
               expanding HCFA’s National Mammography 2000 campaign to include
               pap smear and cervical cancer screening information. This would be
               accomplished using materials created by the National Cancer Institutes of
               the National Institute of Health and capitalizing on the information and
               dissemination strategies of the National Mammography 2000 effort.
               Strategies for promoting the use of diabetes monitoring and self-
               management education and bone mass measurement will be developed
               once regulations have been completed.
